U.S. Department of Agriculture
 Office of Inspector General
     Great Plains Region
         Audit Report



COMMODITY CREDIT CORPORATION’S
   FINANCIAL STATEMENTS FOR
        FISCAL YEAR 2001




              Audit Report No.
              06401-4-KC
              February 2002
                UNITED STATES DEPARTMENT OF AGRICULTURE

                               OFFICE OF INSPECTOR GENERAL


                                   Washington D.C. 20250




DATE:        February 26, 2002

REPLY TO
ATTN OF:     06401-4-KC

SUBJECT:     U.S. Department of Agriculture
             Commodity Credit Corporation’s Financial Statements for
             Fiscal Year 2001

TO:          Board of Directors
             Commodity Credit Corporation


This report presents the results of our audit of the Commodity Credit Corporation’s
(CCC) financial statements for the fiscal year ending September 30, 2001. This report
contains our unqualified opinion on the Balance Sheet and the related Consolidating
Statements of Net Cost and Changes in Net Position and our disclaimer of opinion on
the Combining Statements of Budgetary Resources and Financing. This report also
contains our assessment of CCC’s internal control structure and compliance with laws
and regulations.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60
days describing the corrective action taken or planned, including the timeframes, on our
recommendations. Please note that the regulation requires a management decision be
reached on all findings and recommendations within a maximum of 6 months of report
issuance.

We appreciate the courtesies and cooperation extended to us during the audit.

/s/


JOYCE N. FLEISCHMAN
Acting Inspector General
                       EXECUTIVE SUMMARY

                 U. S. DEPARTMENT OF AGRICULTURE
                    COMMODITY CREDIT CORPORATION’S
                        FINANCIAL STATEMENTS
                         FOR FISCAL YEAR 2001
                      AUDIT REPORT NO. 06401-4-KC

                                       Our audit objectives were to determine
          PURPOSE                      whether     (1)   the   Commodity      Credit
                                       Corporation’s (CCC) financial statements
                                       present fairly, in all material respects, the
          assets, liabilities, and net position; net costs; changes in net position;
          budgetary resources; and reconciliation of net costs to budgetary
          obligations in accordance with generally accepted accounting principles;
          (2) CCC’s internal control structure provides reasonable assurance that
          control objectives were achieved; (3) CCC had complied with laws and
          regulations for those transactions and events that could have a material
          effect on the financial statements; and (4) the information in the
          Management Discussion and Analysis, and the Supplemental Financial
          Information sections was materially consistent with the information in the
          financial statements.

                                      For the fourth consecutive year, we have been
     RESULTS IN BRIEF                 unable to issue an unqualified opinion on all of
                                      CCC’s financial statements. We did express
                                      an unqualified opinion on CCC’s Balance
         Sheet; Statement of Changes in Net Position; and Consolidating
         Statement of Net Cost and we were unable to express, and do not
         express, an opinion on the Combining Statements of Budgetary
         Resources and Financing, as of and for the year ended
         September 30, 2001. This report also contains our assessment of CCC’s
         internal control structure and compliance with laws and regulations.

           CCC’s Fiscal Year (FY) 2001 Combining Statement of Budgetary
           Resources (SBR) does not reconcile to the President’s Budget. CCC’s
           fund accounts had significant undisclosed differences resulting from
           different sources of data used for the President’s Budget and the SBR and
           from adjustments made to the SBR that were made too late to be reported
           to the Office of Management and Budget (OMB). In addition, we could not
           substantiate the CCC’s budgetary accounts which support the SBR and
           Statement of Financing along with the related footnotes.

USDA/OIG-A/06401-4-KC                                                          Page i
          CCC has made progress in correcting some of the serious problems
          reported to CCC officials by the Office of Inspector General (OIG) in our
          last three financial statement audits (FYs 1998, 1999 and 2000), but much
          remains to be done. We found CCC was again required to process
          billions of dollars in adjustments after the deadline established by the
          Department (November 14, 2001), in order to provide its final financial
          statements (February 26, 2002,) for the FY ended September 2001.
          However, our audit coverage still disclosed material errors in the multiple
          versions of the financial statements provided for audit. We continued to
          find that financial reports are inaccurate, accounting operations are not
          reliably performed, account reconciliations are ineffective and appropriate
          supervisory controls are not in place.

          Unless aggressive actions are taken to resolve these problems, achieving
          the reforms required by recent financial management legislation and new
          financial statement interim and final reporting dates, will not be
          accomplished beginning for FY 2002 and subsequent periods.
          Departmental and CCC officials will not have timely, accurate, and useful
          financial information with which to make informed decisions and to ensure
          accountability on an ongoing basis. As a result, users of information from
          the reports or taken from the underlying accounting systems, risk making
          errant decisions, whether for budget purposes or operationally, when they
          rely on questionable information. With assets of over $15.7 billion, and
          costs of $25.3 billion, it is essential CCC make reforms.

          Our Report on CCC’s Internal Control Structure discusses the following
          internal control weaknesses:

          •     Credit reform accounting for CCC continues to be plagued by
                systematic problems and pervasive errors. We found many
                material errors went undetected because CCC foreign loan
                accounting personnel lacked the knowledge, skills, and ability to
                correctly prepare and record certain credit reform entries according
                to Treasury case study guidance. Also, operational improvements
                and more effective supervisory oversight were needed. We have
                advised CCC officials about these problems since our 1998 audit.
                While measures have been taken successfully to compute credit
                reform reestimates and prepare supporting reconciliations, further
                improvements are necessary.

          •     CCC supervisory personnel still did not effectively monitor general
                ledger account balances on a corporate-wide basis or perform
                necessary reconciliations and analyses to ensure the yearend
                account balances were accurate. As a result, CCC posted over

USDA/OIG-A/06401-4-KC                                                         Page ii
                $22.5 billion in adjustments after the “initial” final statements were
                provided to us on November 14, 2001. Also, numerous account
                balances were unsupported and/or contained significant, abnormal
                amounts.

          •     Different credit reform accounting processes were followed by CCC
                budget and accounting units, causing additional workload for the
                CCC staff. Also, the failure, in our opinion, to follow established
                accounting standards for the budget process has led to potential
                misstatements in the budget, and unnecessary complexities in
                reconciling the two multi-billion dollar amounts in the financial
                statements.

          •     CCC has not completed documenting its internal control structure
                for its CORE Accounting System. We found system documentation
                was outdated, fragmented, and did not accurately describe
                accounting system operations and internal controls.

          •     Our prior audit of the security over CCC’s information technology
                (IT) resources reported vulnerabilities and a recent audit of the
                National Information Technology Center reported material internal
                control weaknesses that could impact Farm Service Agency
                (FSA)/CCC operations.

          •     CCC has not taken aggressive action to clarify calculation of cargo
                preference reimbursement claims for transportation of commodities.

          •     CCC’s Management Discussion and Analysis section of its FY 2001
                financial statements did not contain meaningful performance
                measures which demonstrated progress towards meeting its long
                term goals and mission.

          Our Report on CCC Compliance with Laws and Regulations noted the
          following problems:

          •     CCC was not in compliance with the Federal Financial
                Management Improvement Act of 1996 (FFMIA); this was because
                of untimely preparation of financial statements due to excessive
                material year-end adjustments, and problems we noted with its
                foreign loan and domestic program financial management
                operations and systems. In addition, CCC is in nonconformance
                with Section 4 of the Federal Manager’s Financial Integrity Act of
                1982 (FMFIA).



USDA/OIG-A/06401-4-KC                                                         Page iii
            •     Our review disclosed two instances of noncompliance with laws and
                  regulations regarding potential Anti-Deficiency Act violations. CCC
                  also has made little progress in accomplishing substantial
                  compliance with one provision of the Debt Collection Improvement
                  Act of 1996. Also, CCC has not yet conducted required annual
                  reviews of fees associated with the General Sales Manager’s
                  guarantee program.

                                    We have previously recommended that CCC
  KEY RECOMMENDATIONS               obtain outside resources to improve its
                                    financial accounting and reporting functions,
                                    improve the timeliness and accuracy of its
         financial account reconciliations, accounting entries, and adjustments.
         CCC has agreed with the problems in our prior reports and has many
         actions underway to address the reported conditions. In this report, we
         have recommended that CCC:

            •     Develop   appropriate    organizational     changes,     system
                  enhancements, and internal control structures based on the
                  recommendations made at the completion of the contracted study.

            •     Strengthen existing procedures to ensure routine monitoring of
                  general ledger accounts and abnormal balances using a corporate
                  level approach consistent with the timeframes established for
                  preparing interim financial statements.

            •     Develop and implement procedures which provide for the
                  reconciliation and analyses of all general ledger accounts for CCC’s
                  domestic accounting operations.

            •     Perform reconciliations and strengthen supervisory reviews of
                  CCC’s balance with the U.S. Department of Treasury to ensure
                  errors are corrected before preparation of financial reports and
                  statements.

            •     Evaluate the accounting process used among the three operational
                  locations for CCC general ledger accounts and take appropriate
                  action to ensure they are consistently applied in the future.

            •     Obtain outside resources to evaluate the CORE Accounting System
                  posting models in order to streamline the system’s transaction
                  posting structure.




USDA/OIG-A/06401-4-KC                                                         Page iv
             •      Develop and utilize an automated funds control process that
                    prohibits disbursement of funds before either the agency and/or
                    legislative limitations are exhausted.

                                        CCC recognized the need to address its
           CCC POSITION                 financial accounting and reporting functions to
                                        improve the quality and timeliness of CCC’s
                                        financial statements. The CCC Controller has
initiated the process to address remedies, both short and long term, to provide timely,
accurate, and useful financial information to allow managers to make informed
decisions.




USDA/OIG-A/06401-4-KC                                                           Page v
                                          TABLE OF CONTENTS


EXECUTIVE SUMMARY ...............................................................................................i

 PURPOSE....................................................................................................................i

 RESULTS IN BRIEF ....................................................................................................i

 KEY RECOMMENDATIONS .....................................................................................iv

 CCC POSITION ..........................................................................................................v

TABLE OF CONTENTS...............................................................................................vi

REPORT OF THE OFFICE OF INSPECTOR GENERAL.............................................1

REPORT OF THE OFFICE OF INSPECTOR GENERAL ON INTERNAL CONTROL
STRUCTURE ................................................................................................................4

MANAGEMENT’S RESPONSIBILITY FOR INTERNAL CONTROL STRUCTURE.....6

OIG’S EVALUATION OF CCC’S INTERNAL CONTROL STRUCTURE .....................7

FINDINGS AND RECOMMENDATIONS ......................................................................9

   I. ACCOUNTING AND FOREIGN CREDIT REFORM PROBLEMS CONTINUE TO
   HAVE A MATERIAL IMPACT ON COMMODITY CREDIT CORPORATION
   FINANCIAL STATEMENTS AND BUDGET SUBMISSIONS ...................................9

   FINDING NO. 1 .......................................................................................................10

   FINDING NO. 2 .......................................................................................................12

   RECOMMENDATION NO. 1...................................................................................18

   RECOMMENDATION NO. 2...................................................................................18

   RECOMMENDATION NO. 3...................................................................................18

   RECOMMENDATION NO. 4...................................................................................18



USDA/OIG-A/06401-4-KC                                                                                               Page vi
  RECOMMENDATION NO. 5...................................................................................18

  RECOMMENDATION NO. 6...................................................................................18

  RECOMMENDATION NO. 7...................................................................................18

  RECOMMENDATION NO. 8...................................................................................19

  RECOMMENDATION NO. 9...................................................................................19

  RECOMMENDATION NO. 10.................................................................................19

  RECOMMENDATION NO. 11.................................................................................19

  II. IMPROVED INTERNAL CONTROL AND SYSTEMS DOCUMENTATION
  NEEDED FOR CCC CORPORATE ACCOUNTING AND OTHER KEY
  SYSTEMS………………………………………………………………………………….20

  FINDING NO. 3 .......................................................................................................20

  RECOMMENDATION NO. 12.................................................................................21

  FINDING NO. 4 .......................................................................................................22

  RECOMMENDATION NO. 13.................................................................................23

  FINDING NO. 5 .......................................................................................................25

  RECOMMENDATION NO. 14.................................................................................26

  III. IMPROVEMENTS NEEDED IN SECURITY AND CONTROL OVER
  INFORMATION TECHNOLOGY (IT) RESOURCES………….……………………...27

  FINDING NO. 6 ....................................................................................... …………27

  IV. COMPUTATION OF CARGO PREFERENCE REIMBURSEMENT CLAIMS IN
  DISPUTE………………………………………………………….……………………….30

  FINDING NO. 7 .......................................................................................................30

  RECOMMENDATION NO. 15.................................................................................31

  V. MEANINGFUL PERFORMANCE MEASURES ARE NEEDED…........ ……..…32

  FINDING NO. 8 .......................................................................................................32

USDA/OIG-A/06401-4-KC                                                                                          Page vii
   REPORT OF THE OFFICE OF INSPECTOR GENERAL ON COMPLIANCE WITH
   LAWS AND REGULATIONS ................................................................................... 34

   FINDINGS AND RECOMMENDATIONS .............................................................. 37

   VI. NONCOMPLIANCE     WITH FEDERAL FINANCIAL MANGEMENT
   IMPROVEMENT ACT (FFMIA) AND FEDERAL MANAGER’S FINANCIAL
   INTEGRITY ACT (FMFIA)…………….………………………… ……………………….37

   FINDING NO. 9 ........................................................................................................ 37

   RECOMMENDATION NO. 16.................................................................................. 41

   VII. POTENTIAL NONCOMPLIANCE WITH THE ANTI-DEFICIENCY ACT
   REQUIREMENTS………………………….………………………………………………42

   FINDING NO. 10 ..................................................................................................... .42

   RECOMMENDATION NO. 17.................................................................................. 43

   RECOMMENDATION NO. 18.................................................................................. 43

   FINDING NO. 11 ...................................................................................................... 44

   RECOMMENDATION NO. 19.................................................................................. 45

   RECOMMENDATION NO. 20.................................................................................. 45

   VIII. NON-COMPLIANCE WITH DEBT COLLECTION IMPROVEMENT ACT …...46

   FINDING NO. 12 .................................................................................................... . 46

   RECOMMENDATION NO. 21.................................................................................. 48

   RECOMMENDATION NO. 22.................................................................................. 48

   RECOMMENDATION NO. 23.................................................................................. 48

   IX. ANNUAL REVIEW OF USER FEES NOT PERFORMED FOR ALL
   PROGRAMS……………………………………………………………………………….49

   FINDING NO. 13 .....................................................................................................49

ABBREVIATIONS.......................................................................................................51

USDA/OIG-A/06401-4-KC                                                                                           Page viii
                        TABLE OF CONTENTS



COMMODITY CREDIT CORPORATION FINANCIAL STATEMENTS – FISCAL YEAR
2001 (Prepared by CCC)

     MANAGEMENT’S DISCUSSION AND ANALYSIS
     OF CCC’S FINANCIAL STATEMENTS ………………………………….………….1

     BALANCE SHEET………………………………………………..…………….….… 21

     STATEMENT OF CHANGES IN NET POSITION……………...………………….22

     CONSOLIDATING STATEMENT OF NET COSTS ………………………………23

     COMBINING STATEMENT OF BUDGETARY RESOURCES…………………..24

     COMBINING STATEMENT OF FINANCING ……………….….…………………25

     SUPPORTING SCHEDULES…………………………………….………………….27

     REQUIRED SUPPLEMENTARY INFORMATION……….………………………..30

     REQUIRED SUPPLEMENTARY
     STEWARDSHIP INFORMATION ………………………………….……………….36

     NOTES TO FINANCIAL STATEMENTS …………..…….………………………..37




USDA/OIG-A/06401-4-KC                                     Page ix
                UNITED STATES DEPARTMENT OF AGRICULTURE

                               OFFICE OF INSPECTOR GENERAL


                                   Washington D.C. 20250




  REPORT OF THE OFFICE OF INSPECTOR GENERAL

TO:   Board of Directors
      Commodity Credit Corporation

We have audited the accompanying Balance Sheet of the Commodity Credit
Corporation (CCC) as of September 30, 2001, and the related Consolidating
Statements of Net Cost and Changes in Net Position for the fiscal year (FY) then ended.
 We attempted to audit the accompanying Combining Statements of Budgetary
Resources and Financing for the FY then ended. These financial statements are the
responsibility of CCC’s management. Our responsibility is to express an opinion on
these financial statements based on our audit.

Except as discussed below, we conducted our audit in accordance with generally
accepted auditing standards; the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United
States; Office of Management and Budget (OMB) Bulletin 01-02, “Audit Requirements
for Federal Financial Statements”; and other OMB bulletins applicable to the period
under audit. Those standards require that we plan and perform the audit to obtain
reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements. An audit also includes assessing
the accounting principles used and significant estimates made by management, as well
as evaluating the overall financial statement presentation. We believe that our audit
provides a reasonable basis for our opinion on the accompanying Balance Sheet of
CCC as of September 30, 2001, and the related Consolidating Statements of Net Cost
and Changes in Net Position for the FY then ended.

Based upon our audit coverage, we concluded that CCC was not able to provide
sufficient and competent evidential matter, even after making numerous material
adjustments to its budgetary accounts to support material line items on its Combining
Statements of Budgetary Resources and Financing. We could not substantiate CCC’s
financial statements and footnote disclosures related to its budgetary accounts.
These statements are impacted by CCC’s inability to fully reconcile and adequately
explain differences between its Combining Statement of Budgetary Resources and the
Budget actual amounts in the Program and Financing (P&F) Schedules of the
President’s Budget in time for audit. This reconciliation is required by Statement of
Federal Financial Accounting Standards (SFFAS) No. 7, Paragraph 79. Because of the
conditions noted, we determined it was not practicable to perform further alternative
USDA/OIG-A/06401-4-KC                                                          Page 1
procedures to satisfy ourselves as to: (1) the value of CCC’s Budgetary Resources,
Status of Resources and Budgetary outlays on the Combining Statement of Budgetary
Resources and (2) the value of any of the financial statement line items on the
Statement of Financing related to budgetary accounts.

In our opinion, the Balance Sheet of the CCC as of September 30, 2001, and the
related Consolidating Statements of Net Cost and Changes in Net Position referred to
above, including the accompanying notes, present fairly in all material respects, in
accordance with generally accepted accounting principles, the assets, liabilities, and net
position as of September 30, 2001; as well as its net cost, and changes in net position
for the year then ended.

Because of the effects of the matters discussed in the preceding paragraphs, we were
not able to satisfy ourselves as to the value of CCC’s budgetary resources, status of
resources, and budgetary outlays for the FY ended September 30, 2001, as well as its
reconciliation of net costs to budgetary obligations for the FY then ended. Therefore,
we are unable to express, and we do not express, an opinion on CCC’s Combining
Statement of Budgetary Resources and Statement of Financing.

Our audit was conducted for the purpose of forming an opinion on CCC’s financial
statements taken as a whole. The information in the Management’s Discussion and
Analysis and Supplementary Information sections are not a required part of the financial
statements but are supplementary information required by OMB’s Form and Content of
Agency Financial Statements and in subsequent issuances. We have considered
whether this information is materially consistent with the principal financial statements.
Such information has not been subjected to auditing procedures applied in the audit of
the financial statements, and accordingly, we express no opinion on it.

As discussed in Note 4, CCC provides direct credits and credit guarantees to foreign
countries receiving exported agricultural commodities. The allowance for losses
associated with these credits and guarantees is considered adequate by management
to provide for estimated losses and is based on CCC’s evaluation of the portfolios taking
into consideration a variety of factors including, repayment status, assessment of future
risks, and worldwide economic and political conditions. Future economic and political
conditions could affect the ultimate collection of these credits and credit guarantees.

In Note 4 to the financial statements, CCC implemented in FY 2001, SFFAS No. 18,
Amendments to Accounting Standards for Direct Loans and Loan Guarantees. The
CCC has included the additional disclosures as required by SFFAS No. 18 to improve
financial reporting for subsidy costs and performance of Federal credit programs. The
amounts for FY 2000 included in Note 4 have been prepared for comparative purposes
and are unaudited.




USDA/OIG-A/06401-4-KC                                                             Page 2
We have also issued a report on CCC’s internal control structure, which cites eight
reportable internal control weaknesses, and a report on CCC’s compliance with laws
and regulations, which includes five instances of noncompliance.

This report is intended solely for the information and use of the management of CCC,
USDA, OMB, and Congress, and is not intended to be and should not be used by
anyone other than these specified parties.




JOYCE N. FLEISCHMAN
Acting Inspector General


February 26, 2002




USDA/OIG-A/06401-4-KC                                                        Page 3
                 UNITED STATES DEPARTMENT OF AGRICULTURE

                                OFFICE OF INSPECTOR GENERAL


                                     Washington D.C. 20250




  REPORT OF THE OFFICE OF INSPECTOR GENERAL
       ON INTERNAL CONTROL STRUCTURE

TO:   Board of Directors
      Commodity Credit Corporation

We have audited the accompanying Balance Sheet of the Commodity Credit
Corporation (CCC) as of September 30, 2001, and the related Consolidating
Statements of Net Cost and Changes in Net Position and Required Supplementary
Stewardship Information for the fiscal year (FY) then ended. We attempted to audit the
accompanying Combining Statements of Budgetary Resources and Financing and have
issued our report thereon, dated February 26, 2002. Except as provided in our opinion,
we conducted our audit in accordance with generally accepted auditing standards; the
standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States; Office of Management and
Budget (OMB) Bulletin 01-02, “Audit Requirements for Federal Financial Statements”;
and other OMB bulletins applicable to the period under audit.

In planning and performing our audit of the financial statements of CCC for the FY
ended September 30, 2001, we considered its internal control structure over financial
reporting by obtaining an understanding of CCC’s internal controls, determined whether
these internal controls had been placed in operation, assessed control risk, and
performed tests of controls in order to determine our auditing procedures for the
purpose of expressing our opinion on the financial statements and not to provide
assurance on the internal control over financial reporting. We limited our internal control
testing to those controls necessary to achieve the objectives described in OMB Bulletin
01-02 and subsequent issuances. We did not test all internal controls relevant to
operating objectives, as broadly defined by the Federal Managers’ Financial Integrity
Act of 1982 (FMFIA), such as those controls relevant to ensuring efficient operations.
The objective of our audit was not to provide assurance on internal control.
Consequently, we do not provide an opinion on internal control.

In addition, we considered CCC’s internal controls over Required Supplementary
Stewardship Information by obtaining an understanding of the internal controls,
determined whether the internal controls had been placed in operation, assessed
control risk and performed tests of controls as required by OMB Bulletin 01-02, as


USDA/OIG-A/06401-4-KC                                                              Page 4
amended, and not to provide assurance on these internal controls. Accordingly, we do
not provide assurance on such controls.

The information presented in the Management Discussion and Analysis is supplemental
information required by OMB Bulletin “Form and Content of Agency Financial
Statements” and subsequent issuances. OMB Bulletin 01-02 requires that we obtain an
understanding of the internal controls designed to ensure data supporting the
performance measures are properly recorded and accounted for to permit the
preparation of reliable and complete information. Our audit work in the area of
performance measures involved confirming the financial information included in the
Management Discussion and Analysis section with information contained in the principal
financial statements and ensuring that there was data to support the performance
measures. As part of Audit No. 50601-4-CH, conducted during FY 2002, we reviewed
and tested CCC’s policies, procedures and systems for documenting and supporting
financial, statistical, and other information presented in the Management Discussion and
Analysis. We found that performance goals included in CCC’s FY 2001 financial
statements could be more outcome-oriented and better demonstrate CCC’s progress in
achieving its mission, major goals, and objectives.




USDA/OIG-A/06401-4-KC                                                           Page 5
   MANAGEMENT’S RESPONSIBILITY FOR INTERNAL CONTROL STRUCTURE


The management of CCC is responsible for establishing and maintaining an internal
control structure.      In fulfilling this responsibility, estimates and judgments by
management are required to assess the expected benefits and related costs of internal
control structure policies and procedures. The objectives of an internal control structure
are to provide management with reasonable, but not absolute, assurance that assets
are safeguarded against loss from unauthorized use or disposition, and that
transactions are executed in accordance with management’s authorization and
recorded properly to permit the preparation of financial statements in accordance with
generally accepted accounting principles. Because of inherent limitations in any internal
control structure, errors or irregularities may, nevertheless, occur and not be detected.
Also, projection of any evaluation of the internal control structure to future periods is
subject to the risk that procedures may become inadequate because of changes in
conditions or that the effectiveness of the design and operation of policies and
procedures may deteriorate.

For its FY 2001 FMFIA report, the FSA/CCC reported to the Office of the Chief Financial
Officer (OCFO) on October 2, 2001, that two of the three Section 2, Management
Accountability and Control weaknesses, had been corrected and its one remaining
Section 4, Financial Management System nonconformance had not yet been corrected.
 The reported Section 2 weaknesses that had been corrected pertained to: (1) the
foreign credit reform accounting and subsidy reestimate process and, (2)
underutilization within the agency’s workforce of minorities, women, and persons with
disabilities, and program discrimination complaints against the agency. The Section 2
weakness that was yet uncorrected pertained to reimbursement claims not being made
for excess ocean freight payments and cargo preference reimbursements for costs
incurred under the P.L. 480 Food Assistance Programs administered by the Agency for
International Development. The uncorrected Section 4, Financial Management System,
nonconformance related to CCC’s foreign credit, and credit reform financial
management systems not being fully automated and integrated into CCC’s CORE
Accounting System.

Additionally, CCC submitted its 2002-2003 Federal Financial Management Improvement
Act of 1996 (FFMIA) remediation plan, which discussed the status of CCC’s corrective
actions for its reported Section 2 weakness on reimbursements for unclaimed ocean
freight transportation and the Section 4 nonconformances in CCC’s financial
management systems. The plan showed that corrective actions were to be completed
by June 30, 2002, and September 30, 2004, respectively.




USDA/OIG-A/06401-4-KC                                                             Page 6
          OIG’S EVALUATION OF CCC’S INTERNAL CONTROL STRUCTURE


For the purpose of this report, we have classified CCC’s significant internal control
structure policies and procedures into the following categories:

      •    Cash management – consists of policies and procedures associated with
           disbursing and collecting cash, reconciling cash balances, and managing
           debt.

      •    Commodity loans – consists of policies and procedures associated with
           authorizing and disbursing loans, accruing interest on loans, collecting loan
           repayments, and recognizing loan write-offs.

      •    Export trade – consists of policies and procedures associated with authorizing
           and disbursing credits and guarantee payments, collecting loan repayments,
           and disbursing export subsidies.

      •    Financial reporting – consists of policies and procedures associated with
           miscellaneous activity, processing accounting entries, and preparing CCC’s
           annual financial statements and budgetary reports.

      •    Inventories – consists of policies and procedures associated with acquiring
           commodities through purchase and loan forfeiture, storing and managing
           commodity inventories, and disposing of commodities through sales and
           donations.

      •    Producer payments – consists of policies and procedures associated with
           determining producer eligibility, disbursing funds to producers, and accruing
           expenses.

For each of the internal control structure categories listed above, we obtained an
understanding of the design of significant control policies and procedures and whether
they have been placed in operation. We assessed control risk and performed tests of
FSA/CCC’s internal control structure.

In making our risk assessment, we considered FSA/CCC’s FMFIA reports, a well as our
prior and current audit efforts and other independent auditor reports on financial
matters, and internal accounting control policies and procedures. Because of the
internal accounting control weaknesses related to the problems discussed in this audit,
we agree with management’s assertion that it has material noncomformances relating to
its foreign loan accounting system. Regarding the 2001 FMFIA report, we agree with


USDA/OIG-A/06401-4-KC                                                            Page 7
CCC’s conclusion that it is generally in compliance with Section 2 but we do not believe
that CCC complies with Section 4 as noted in its report to the Secretary.

Our consideration of the internal controls over financial reporting would not necessarily
disclose all matters in the internal control over financial reporting that might be
reportable conditions. We noted certain matters involving the internal control structure
and its operation that we consider reportable conditions. Under standards issued by the
American Institute of Certified Public Accountants, reportable conditions involve matters
coming to our attention relating to significant deficiencies in the design or operation of
the internal control structure that, in our judgment, could adversely affect CCC’s ability
to have reasonable assurance that the following objectives are met:

  (1) Transactions are properly recorded and accounted for to permit the preparation
      of reliable financial statements and to maintain accountability over assets;

  (2) Funds, property, and other assets are safeguarded against loss from
      unauthorized use or disposition; and

  (3) Transactions, including those related to obligations and costs, are executed in
      compliance with (a) laws and regulations that could have a direct and material
      effect on the Principal Statements, and (b) any other laws and regulations that
      OMB, CCC, or we have identified as being significant for which compliance can
      be objectively measured and evaluated.

Matters involving internal control and their operation that we consider reportable
conditions are presented in the “Findings and Recommendations” section of this report.




USDA/OIG-A/06401-4-KC                                                             Page 8
              FINDINGS AND RECOMMENDATIONS


I. ACCOUNTING AND FOREIGN CREDIT REFORM PROBLEMS
CONTINUE TO HAVE A MATERIAL IMPACT ON COMMODITY CREDIT
CORPORATION FINANCIAL STATEMENTS AND BUDGET
SUBMISSIONS


For the last seven consecutive years, we have reported significant problems in the
procedures used by CCC for reporting on its credit reform accounting, and other
financial information. CCC has not implemented an effective accounting and financial
management system to produce complete, reliable, timely and consistent financial
statements. Extensive improvements are still needed to resolve longstanding systemic
accounting operational problems and in the availability and reliability of critical financial
data used to prepare its financial statements. These problems continue to plague CCC
because it still has not taken sufficient action to implement the recommendations
contained in our prior audit reports. CCC corrective actions have been piecemeal
and/or ineffective. As a result, CCC was unable to prepare financial statements with
sufficient, competent, supporting documentation the past 4 fiscal years. For FY 2001,
CCC submitted its initial set of financial statements within the timeframe established by
the Department. However, this set of financial statements contained numerous errors,
omissions, and were materially misstated. Consequently, CCC and departmental
officials do not have a reliable source of information for budget and program decision
making purposes. CCC has net assets totaling $15.7 billion and net cost of operations
of $25.3 billion.

Since our audit of CCC’s FY 1998 financial statements (Audit No. 06401-9-FM, dated
February 22, 1999), we have recommended CCC strengthen its financial management
operations by reorganizing its accounting, budgeting and reporting functions; and
making other changes to improve the timeliness and accuracy of its financial
statements, accounting and budgetary reports. Also, we recommended that the Chief
Financial Officer (CFO) become involved in resolving these serious problems. In
response to our prior recommendations, CCC informed us that necessary accounting
and financial personnel had received extensive training in the use of OMB cash flow
models. CCC added new staff members, including a controller, provided additional
training, and engaged additional Financial Management Division accounting resources
to strengthen its financial management operations. Also, CCC officials advised that the
CCC Chief Accountant would be more involved in foreign accounting operations. In
addition, CCC obtained an outside contractor who performed an independent validation
and verification of CCC’s credit reform accounting, successfully computed its credit
reform reestimates and established reconciliation procedures to timely and properly

USDA/OIG-A/06401-4-KC                                                                Page 9
reconcile its foreign records, especially CCC’s Fund Balance with Treasury (FBWT),
and credit reform accounts on a monthly basis. CCC has continued to train its credit
reform accounting staff to improve the recording and approval of credit reform
accounting transactions. Key personnel completed training in vendor ACCESS
(Reestimate Model), EXCEL (Reestimate Model), Balances Approach, and have studied
and obtained experience with Credit Reform guidance.

However, our current audit work disclosed that actions taken to date by CCC officials
still have been ineffective in resolving the longstanding problems we have reported. We
continue to find a lack of quality assurance over CCC foreign loan accounting
operations and preparation of its financial statements. Our review disclosed CCC
foreign loan accounting personnel still need additional training in credit reform direct and
guarantee loan program accounting and reporting concepts, and U. S. Standard
General Ledger (SGL) and U.S. Department of Treasury (Treasury) case study posting
requirements. CCC is in the process of contracting with a commercial firm to evaluate
CCC’s foreign credit reform financial operations and coordinating this study with the
Office of the Chief Financial Officer (OCFO). The study is to address appropriate
organizational changes, system enhancements and internal controls. The planned
completion date for this endeavor is September 30, 2002.

                                       As we reported in our prior two reports, there
         FINDING NO. 1                 are substantially different credit reform
                                       accounting and reporting standards for the
   Non – Standard Credit Reform        budget and financial statements for CCC. In
    Accounting For CCC Budget          our opinion, the difference in budgetary
    Caused Misstatements and           reestimates adversely impacts CCC’s budget
       Increased Workload              submissions because the budget does not
                                       reflect the current financial status of the
                                       individual countries. For FY 2001, CCC credit
            reform subsidy costs for direct credits and guarantees disbursed during
            the year were estimated at over $258 million.

              Effective for FY 1992, the Federal Credit Reform Act (Act) of 1990
              required the President’s Budget to reflect the “costs” of direct loan and
              guarantee programs. “Costs” are defined by this Act to mean the
              estimated long-term cost to the Government of direct loans or loan
              guarantees, calculated on a net present value basis, excluding
              administrative costs and incidental effects of receipts and outlays. The
              primary intent of the Act is to ensure that the subsidy costs of federal loan
              programs are taken into account in making budgetary decisions.

              In a memorandum, dated February 18, 1997, OMB advised agencies with
              international foreign loans and guarantees that when reestimating default
              subsidies, a country’s expected default cash flow should remain the same



USDA/OIG-A/06401-4-KC                                                              Page 10
                   as estimated at the original time the loan/guarantee was obligated.1
                   However, the SFFAS No. 2, “Accounting for Direct Loans and Loan
                   Guarantee” requires that the subsidy (loan loss reserve) be estimated as
                   of the date of the financial statements using the current country default
                   risk rating. To estimate the potential impact of using different risk ratings,
                   we reestimated the subsidy for the remaining years of a loan to a country
                   whose risk grade had dropped and noted that costs would be understated
                   in the budget by 58 percent or $13 million for this one country for one loan.
                    In addition to distorting the budget, this procedure causes CCC personnel
                   to prepare two different credit reform reestimates which takes additional
                   staff time.

                   We made recommendations to the Department in our prior audit of the
                   USDA Consolidated Financial Statements for FY 1998, Audit Report No.
                   50401-30-FM, dated February 22, 1999, to establish a working group to
                   resolve all departmental credit reform problems. During FY 1999, the
                   Department’s CFO established a task force to assist in resolving the
                   Department’s credit reform problems. As part of its efforts, this task force
                   worked to obtain consistency in the processes followed to estimate loan
                   subsidy costs between the budget and financial statements. To date,
                   OMB advised that it changed its credit reform budget procedures to be
                   more consistent with financial accounting standards. This change is to be
                   effective for the FY 2003 budget. Because OIG continues to work with the
                   Department and CCC to overcome this condition, we are making no
                   further recommendations in this report.




1
  The Inter-Agency Country Risk Assessment System (ICRAS) was developed to provide a consistent method of measuring the risk
associated with loans and guarantees made to international borrowers. In this system, each borrower country on an individual basis
is assigned to 1 of 11 risk categories. Default probabilities (risk premia), measured over the life of the loan or guarantee, are
estimated for each risk category. These risk premia are then used to determine both expected repayment and subsidy levels.

USDA/OIG-A/06401-4-KC                                                                                                Page 11
                                           For the seventh consecutive year, we found
            FINDING NO. 2                  significant errors and omissions in CCC’s
                                           records for their foreign loan accounting
    Improvement in Overall Corporate       operations. In addition, CCC’s accounting
        Financial Accounting and           records for its domestic accounting operations
            Reporting Needed               also contained significant errors and
                                           omissions.      These errors and omissions,
                                           involving billions of dollars, could have been
               detected and prevented had appropriate reconciliations been performed,
               adequate training been provided and supervisory oversight been more
               effective. These problems are further compounded because CCC’s
               foreign credit subsidiary systems and credit reform financial systems are
               not fully automated and integrated into CCC’s CORE Accounting System.
               As a result of these material internal control weaknesses, transactions are
               not properly and timely recorded, processed, and summarized to permit
               the preparation of reliable financial statements and reports without
               numerous and substantial adjustments. These conditions will significantly
               hamper CCC’s ability to meet the timelines established by OMB Bulletin
               01-09, “Form and Content of Agency Financial Statements”2, for preparing
               meaningful, complete, and accurate interim and year-end financial
               statements in the future.

                   Details of the conditions noted include:

                   •         As noted in all our prior CCC audits, CCC continued to post
                             extensive and material adjustments to its financial statements after
                             the general ledger was closed for the FY. This occurred because
                             CCC’s current year-end closing process is not effective to ensure
                             material errors are prevented or identified and corrected before the
                             general ledger is closed. CCC’s CORE Accounting System is not
                             yet fully automated and integrated with its loan subsidiary systems
                             and credit reform financial systems. In addition, CCC personnel
                             lack sufficient knowledge and proficiency with Federal credit reform
                             accounting procedures, necessary accounting skills, and need
                             more effective supervisory oversight exercised over their activities.
                             The following chart shows the volume and impact of CCC’s
                             adjustments      in   compiling    their   November     14,    2001,
                             January 4, 2002, February 1, 2002, and February 26, 2002,
                             versions of its FY 2001 financial statements:




2
 OMB Bulletin 01-09 requires that unaudited interim financial statements be submitted to OMB by May 31, 2002 for the six-month
period ending March 31, 2002. The bulletin further requires that beginning in FY 2003, unaudited interim financial statements be
prepared and submitted to OMB on a quarterly basis no later 45 days after the end of the reporting period to be accelerated to 21
days after the end of each quarter.

USDA/OIG-A/06401-4-KC                                                                                               Page 12
          Date                  Domestic               Foreign                  Total
  Through November
                              83 Adjustments        42 Adjustments         125 Adjustments
  14, 2001 (Original
  Date)                        $63.8 Billion          $6.9 Billion           $70.7 Billion
  November 15, 2001
                              32 Adjustments        30 Adjustments         62 Adjustments
  through January 4,
         nd
  2002 (2 Version)              $7.0 Billion          13.2 Billion           $20.2 Billion
  January 5, 2002
                              2 Adjustments         12 Adjustments         14 Adjustments
  through February 1,
         rd
  2002 (3 Version)              $.4 Billion           $1.2 Billion           $1.6 Billion
  February 2, 2002
  through February 26,
         th                   4 Adjustments         0 Adjustments           4 Adjustments
  2002 (4 , Final
  Version)                      $0.7Billion            $0 Billion            $0.7Billion
                             121 Adjustments        84 Adjustments         205 Adjustments
          Total                $71.9 Billion         $21.3 Billion           $93.2 Billion



                         We reviewed 199 of the 205 adjustments and determined that 33
                         contained errors.    We also determined that 55 of the 205
                         adjustments reviewed were made to correct previous general
                         ledger accounting entries or previous adjusting entries that had
                         been made in error. As in prior audits, we attributed these errors to
                         lack of sufficient training, accounting skills and ineffective
                         supervisory oversight.
                         For the FY 2000 financial statements, CCC posted 226 adjustments
                         totaling $345 billion. CCC has not made substantial improvement
                         in this area in order to meet the timelines established by OMB for
                         interim financial statements and to meet future OMB timelines for
                         interim and year-end financial statements.
              •          Although we noted improvements in CCC’s calculation of its credit
                         reform reestimates and other present value estimates in preparing
                         and recording its financial statements this year, CCC personnel
                         made errors when preparing and recording the results of these
                         calculations in the general ledger. For example, CCC recorded
                         reestimate calculations totaling $142 million in the general ledger
                         and duplicated them using adjusting entries after the general ledger
                         was closed. In addition, CCC made errors in preparing entries
                         when recording the OMB approved credit reform reestimates.
                         These reestimates totaled $2.1 billion. As a result, 63 adjustments
                         totaling $19.1 billion were posted to correct the allowances for
                         credit receivables and their related activities in the February 26,
                         2002, version of its financial statements.
              •          CCC did not record two Forms SF-132, Apportionment and
                         Reapportionment Schedules, totaling $71.8 million during FY 2001
USDA/OIG-A/06401-4-KC                                                                   Page 13
                   because its accounting personnel were not aware of them. This
                   occurred because personnel did not track the Forms SF-132 issued
                   to them by OMB and did not reconcile their amounts to the general
                   ledger. As a result, CCC’s budget authority and obligations
                   incurred, on its Statement of Budgetary Resources (SBR), was
                   understated by $39 million.
             •     We again noted that manual accounting entries were not correctly
                   prepared.     For example, an OMB approved Credit Reform
                   downward reestimate (funds returned to the Treasury) totaling
                   $38.8 million was incorrectly entered as an increase to its foreign
                   loans receivable general ledger account. CCC personnel explained
                   that because of CORE Accounting System limitations some
                   incorrect accounting entries were intentionally made but were
                   eventually corrected. As a result, CCC processed 17 individual
                   accounting entries, including adjusting journal entries, to correct
                   this downward reestimate in their financial statements and four
                   adjusting entries to correctly record the interest expense totaling
                   $5.3 million on Treasury borrowings for the Farm Storage Facility
                   Loan Program. We identified numerous other instances where
                   recorded accounting entries were in error and required multiple
                   accounting entries to correct.
             •     For the two previous fiscal years, we reported numerous problems
                   with CCC’s account analyses and reconciliations for its foreign loan
                   accounting operations.      We found that CCC’s foreign loan
                   accounting operations improved in this area during FY 2001.
                   However, we found that effective policies and procedures were
                   needed for its account analyses and reconciliations for its domestic
                   accounting operations (Form KC-185, Detail of General Ledger
                   Account). CCC’s current KC-185 reconciliation process did not
                   ensure all material differences are identified and corrected in a
                   timely manner.      Furthermore, this process was not applied
                   consistently and did not address all possible accounting anomalies.
                    Specific problems we identified with this process follow:
                   o      CCC identified differences between its proprietary and
                          budgetary accounts totaling $2.2 billion (absolute value) in its
                          account analysis for Account No. 6101, Operating/Program
                          Expense, Non-Federal as of September 30, 2001. However,
                          no corrective action or further research was documented.
                   o  CCC identified a difference of $3 million in its reconciliation
                      for Account No. 1350, Loans Receivable, that was still being
                      researched at the time the financial statements were
                      prepared. In addition, we noted other reconciliations that
                      included reconciling items with references such as “unable to
                      reconcile D-Sub to general ledger” and “CAS Unknown
                      Differences.”
USDA/OIG-A/06401-4-KC                                                      Page 14
                o       The reconciliations/account analyses prepared for the FBWT
                        accounts (Accounts No. 1016 and 1017) did not reflect that
                        the accounts had been reconciled to its feeder systems as of
                        September 30, 2001, and did not address the abnormal
                        balance in Account No. 1017 totaling $229 million.
                o       The reconciliations/account analyses prepared for Account
                        No. 4610, Allotments-Realized Resources and Account No.
                        4620, Other Funds Available for Commitment, did not
                        address the abnormal balances in these accounts at the
                        Program Category (PCAT) level. Account No. 4610 had 5 of
                        25 PCATs with abnormal balances totaling $430 million and
                        Account No. 4620 had 47 of 85 PCATs with abnormal
                        balances totaling $48 billion.
                o       CCC did not prepare a Form KC-185 for all significant CCC
                        funds (Treasury Fund Symbols) and did not document the
                        rationale for excluding certain SGL accounts from the Form
                        KC-185 process. For example, Forms KC-185 were not
                        prepared for the general ledger accounts within Fund
                        12X2278, P.L. 480 Non-Credit Reform. CCC incurred costs
                        exceeding $1 billion in this fund.
                o       CCC had not fully implemented a comprehensive review of
                        budgetary and proprietary accounting relationships as part of
                        the Form KC-185 process.
          •     CCC incorrectly calculated the interest expense for the Farm
                Storage Facility Loan Financing Fund and incorrectly recorded the
                interest expense for two foreign loan-related financing funds. CCC
                personnel did not always follow OMB instructions for calculating the
                financing fund interest expense and CCC’s supervisory oversight
                was not effective to ensure that credit reform calculations for
                financing funds were always recorded correctly. As a result,
                interest expense was misstated by $26 million. CCC corrected
                these errors in the February 26, 2002, version of the financial
                statements.
          •     We noted CCC personnel did not follow corporate accounting policy
                regarding the accrual of loan deficiency payments. This occurred
                because policies and procedures had not been developed for
                requesting changes to corporate accounting policy and obtaining
                concurrence of the Controller prior to implementation. Prior to FY
                2001, CCC accounting policy was to accrue amounts due and
                payable for loan deficiency payments as of September 30. In recent
                years, this accrual routinely exceeded $1 billion. After we brought
                this matter to CCC’s attention, it subsequently recorded an accrued
                liability and increased program expenses by $870 million as of and


USDA/OIG-A/06401-4-KC                                                       Page 15
                for the FY ending September 30, 2001, in the February 26, 2002,
                version of the financial statements.
          •     For the two previous fiscal years, we reported that CCC’s general
                ledger for its foreign loan accounting operations contained
                abnormal balances that were material to the financial statements.
                Although we noted improvements in this area during FY 2001, CCC
                does not have effective corporate-wide policies and procedures to
                ensure all foreign and domestic general ledger accounts containing
                abnormal balances are identified and corrected. Also, the financial
                statement impact is not assessed and resolved for each general
                ledger account with a material abnormal balance. These abnormal
                balances continue to occur, in part, because incorrect accounting
                adjustments are allowed to be made or corrective action is not
                required by CCC supervisory personnel. For example, CCC
                identified an abnormal balance totaling $271 million on its
                November 14, 2001, financial statements provided to us. However,
                personnel did not assess the financial statement impact of this
                abnormal balance or timely correct it. As a result, the uncorrected
                abnormal balance continued to materially misstate its third version
                FY 2001 financial statements provided to us on February 1, 2002.
                CCC corrected this error on its final version of financial statements
                provided to us on February 26, 2002.
          •     CCC’s reconciliation of its Fund Balance with FBWT general ledger
                account to Treasury accounts (TFS-6653) for its main revolving
                fund (12x4336) was not prepared in a manner to clearly identify
                differences due to timing or error. Furthermore, CCC personnel
                responsible for preparing the reconciliations, did not perform
                additional research and take corrective action on those differences
                that were in error. CCC’s reconciliation initially provided to us,
                reflected 38 individual differences totaling $360 million (absolute
                value). CCC personnel initially designated 11 differences totaling
                $194 million (absolute value) as errors. After our inquiry, CCC
                performed additional research and identified and corrected one
                difference totaling $7.1 million that was in error. However, during
                our review of the revised reconciliation, we identified two additional
                errors totaling $212.4 million that needed correction.           CCC
                corrected these errors in the February 26, 2002, version of the
                financial statements.
          •     CCC did not properly account for its property and equipment and
                did not have adequate internal controls over its non-accountable,
                sensitive property (not capitalized). This occurred because CCC
                did not perform reconciliations, but instead, made journal entries in
                FY 2001 totaling $31 million (absolute value) to force its general
                ledger account to agree with its property subsidiary system
                (OCFO/National Finance Center’s Property Management
USDA/OIG-A/06401-4-KC                                                        Page 16
                     Information System). Also, CCC did not consistently follow the
                     Department’s policy to capitalize only property and equipment
                     costing $5,000 or more and did not record its depreciation and
                     amortization expense on a monthly or quarterly basis. We further
                     noted that CCC did not monitor and control all of its non-
                     accountable personal property that was considered sensitive
                     (property and equipment highly susceptible to pilfering, theft, and
                     abuse such as, individual laptop and desktop computers, cell
                     phones, pagers, etc.). As a result, we could not validate the value
                     of CCC’s property and equipment totaling $10 million, net, and the
                     related depreciation and amortization expense totaling $5 million as
                     of and for the FY ending September 30, 2001.
             •       CCC maintains accounting operations at three main accounting
                     offices. We noted the following CCC general ledger accounts or
                     accounting processes that were not used consistently among the
                     three CCC accounting locations:


    Account No.       Foreign Accounting        Domestic Accounting                Domestic
    and Name or           Operations,           Operations,        Kansas         Accounting
    Accounting          Alexandria, VA.                  City, MO.                Operations,
      Process                                                                    St. Louis, MO
  No. 1010, Fund     Used to record some        Used to record FBWT activity    Used to directly
  Balance with       FBWT activity. Year-       recorded by the banking         record all FBWT
  Treasury (FBWT)    end closing account for    system.                         Activity.
                     all activity in Accounts
                     No. 1011 – No. 1019.
  No. 1016, SF-      Used to record the SF-     Used as clearing account to     Not used.
  1219/1220          1219/1220                  match disbursements recorded
  Disbursements      disbursements              in the general ledger and
                     occurring during the       disbursements recorded by the
                     fiscal year.               banking system.
  No. 1017, SF-      Used to record the SF-     Used as clearing account to     Not used.
  1219/1220          1219/1220 collections      match collections recorded in
  Collections        occurring during the       the general ledger and
                     fiscal year.               collections recorded by the
                                                banking system.
  Credit Reform      Recorded annually.         Recorded quarterly.             Frequency not
  Financing Fund                                                                determined.
  Interest Income
  Interest Expense

  No. 4142,          Apportionment              Apportionment schedules are     Apportionment
  Current Year       schedule amounts are       not always recorded.            schedule amounts
  Borrowing          adjusted inconsistently                                    are adjusted before
  Authority          before year end.                                           year end.
  Realized –
  Indefinite


USDA/OIG-A/06401-4-KC                                                                       Page 17
                                Develop appropriate organizational changes,
  RECOMMENDATION NO. 1          system enhancements and internal control
                                structures based upon the recommendations
                                made at the completion of the contracted
        study. Develop a comprehensive plan within 6 months to remedy these
        longstanding problems.

                                      Take appropriate actions to ensure receipt of
  RECOMMENDATION NO. 2                all Forms SF-132 issued by OMB and ensure
                                      they are tracked and always reconciled to the
                                      general ledger in the future.

                                   Strengthen existing procedures to ensure
  RECOMMENDATION NO. 3             routine monitoring of general ledger accounts
                                   and abnormal balances using a corporate
                                   level approach consistent with the timeframes
        established for preparing interim financial statements. Ensure these
        procedures provide for accurate research of the cause(s), determination of
        financial statement impact and accomplishment of corrective actions,
        where warranted.

                                    Establish procedures for requesting and
  RECOMMENDATION NO. 4              approving changes to corporate accounting
                                    policy for all CCC programs and require
                                    written concurrence by the Chief Accountant
        and/or Controller before implementing them.

                                      Develop and implement procedures which
  RECOMMENDATION NO. 5                provide for the calculating and recording of
                                      credit reform financing costs in accordance
                                      with Treasury and OMB guidelines.

                                    Develop and implement procedures which
  RECOMMENDATION NO. 6              provide for the reconciliation and analysis of
                                    all general ledger accounts for CCC’s
                                    domestic accounting operations. Consistent
        with timeframes established for interim financial statements, ensure these
        procedures provide for comprehensive reconciliations, accurate research
        and correction of exception items and analysis of all possible budgetary
        and proprietary accounting relationships.

                                      Instruct responsible FSA/CCC accounting
  RECOMMENDATION NO. 7                personnel to reconcile the CCC’s general
                                      ledger accounts for property and equipment to
                                      its property subsidiary system and to resolve
USDA/OIG-A/06401-4-KC                                                     Page 18
            any differences found.        Revise procedures to ensure that all
            non-accountable sensitive property is identified, accounted for and
            entered in the agency’s property system. Periodically perform a physical
            inventory and reconcile to property system subsidiary records.

                                      Develop and implement procedures to provide
  RECOMMENDATION NO. 8                that CCC reconciliations of its FBWT general
                                      ledger account and Treasury accounts be
                                      prepared in a manner to facilitate the clear
        identification of differences occurring due to timing or error. Ensure these
        procedures require that differences occurring due to errors are all
        corrected prior to preparing financial reports, including financial
        statements in the future. Strengthen supervisory review over CCC’s
        reconciliations of its FBWT general ledger account and Treasury
        accounts.

                                       Ensure      departmental requirements      for
  RECOMMENDATION NO. 9                 capitalizing property and equipment       are
                                       followed in the future.


                                       Develop a comprehensive training program
 RECOMMENDATION NO. 10                 and obtain additional credit reform, SGL, and
                                       budgetary accounting training for CCC
                                       supervisory, accounting, and other critical
            personnel.

                                       Evaluate the accounting processes used
 RECOMMENDATION NO. 11                 among the three operational locations for CCC
                                       general ledger accounts and take appropriate
                                       action to ensure they are consistently applied
            in the future.




USDA/OIG-A/06401-4-KC                                                       Page 19
II. IMPROVED INTERNAL CONTROL AND SYSTEMS
DOCUMENTATION NEEDED FOR CCC CORPORATE ACCOUNTING
AND OTHER KEY SYSTEMS


Incomplete and inadequate documentation for CCC's internal control and financial
systems continues to compromise the quality of assurances for the effectiveness and
efficiency of operations, the reliability of financial systems, and compliance with laws
and regulations. We reported the absence of documented control objectives and
techniques in six consecutive audit reports without obtaining appropriate corrective
action. Our audit also disclosed significant deficiencies in the documentation for CCC
financial systems, including viable systems overviews and use of naming conventions
for certain CORE Accounting System applications. As a result, CCC’s ability to provide
reasonable assurance that its financial systems operate as intended or are properly
managed and controlled, is reduced.

                                          During our audit of CCC’s FY 2000 Financial
           FINDING NO. 3                  Statements (Audit Report No. 06401-14-FM),
                                          we reported that FSA/CCC did not document
    Documented Control Objectives         the internal control structure for the new
     and Techniques are Needed to         CORE Accounting System.         FSA officials
      Improve System Assurances           agreed to develop control objectives and
                                          techniques for the CORE Accounting System
                                          by October 31, 2001. However, the agency
              has not yet developed or implemented this action. Our audit disclosed
              that the agency also has not developed similar documentation for its other
              supporting financial and program (feeder) systems that are key to CCC’s
              mission. As a result, FSA/CCC’s ability to provide reasonable assurance
              that CCC financial systems operate as intended, with clear and compatible
              control objectives and techniques in the fragmented structure currently
              employed to manage, control, and report on CCC financial operations is
              reduced.

                   The Committee of Sponsoring Organizations of the Treadway
                   Commission3 recommended sponsoring a project to provide practical,
                   broadly accepted criteria for establishing internal control and evaluating its
                   effectiveness. As a result of this study, the sponsoring organizations
                   issued the “Internal Control – Integrated Framework” in September 1992.
                   The “framework” provides a comprehensive basis for developing and
                   assessing internal controls in any organization. In November 1999, the

3
 The National commission on Fraudulent Financial Reporting – A joint sponsorship of the AICPA, American Accounting Association,
Financial Executives Institute, Institute of Internal Auditors, and the Institute of Management Accountants.

USDA/OIG-A/06401-4-KC                                                                                             Page 20
                   General Accounting Office (GAO) updated its “Standards for Internal
                   Control in the Federal Government”.4 The GAO noted in this revision
                   “rapid advances in information technology have highlighted the need for
                   updated internal control guidance related to modern computer systems”.

                   We have reported the absence of a documented internal control structure
                   to CCC since 1994 in prior financial statement audit reports. In our Audit
                   Report No. 03600-16-FM, dated January 31, 1994, we recommended that
                   CCC develop and document high and intermediate control objectives and
                   techniques in an integrated, top down, risk-oriented framework. Our next
                   six financial statement audit reports, including our FY 2000 financial
                   statement audit report, also reported this problem. In response to our FY
                   1998 financial statement audit report, FSA officials stated that the agency
                   had completed documentation of its control objectives and techniques.
                   However, during our FY 2000 audit, we found that with the implementation
                   of the new CORE Accounting System, the controls needed to be revised
                   to reflect significant changes in the new system.

                   CCC agreed that control objectives and techniques would be established
                   and documented for the CORE Accounting System by October 31, 2001,
                   but it has not yet implemented this action.

                                     Perform an overall risk assessment of CCC
    RECOMMENDATION NO. 12            financial accounting     and    management
                                     systems, including the CORE Accounting
                                     System, its feeder systems, and other
          financial and program systems supporting the CCC general ledger and
          financial statements. Conduct the assessment under a single corporate
          level approach as though the CORE Accounting System and all its
          supporting systems operated as a single integrated central system.
          Based on this more corporate approach, develop and document high and
          intermediate control objectives and techniques for an integrated, top
          down, risk-oriented framework for CCC financial accounting management
          systems as a whole.




4
  The FMFIA requires GAO to issue standards for internal controls in Government. OMB Circular A-123 provides specific
requirements for assessing and reporting on controls. Recently, other laws have renewed focus on internal controls, such as the
Government Performance and Results Act of 1993 (GPRA), the CFO Act of 1990, and the FFMIA of 1996.

USDA/OIG-A/06401-4-KC                                                                                             Page 21
                                        User documentation for CCC financial
        FINDING NO. 4                   systems was not adequate to ensure efficient
                                        and effective financial operations or to
   Improved Financial Systems           facilitate    independent      evaluation    of
Documentation Would Enhance the         management     controls over system operations.
     Reliability of Operations          FSA/CCC financial managers did not
                                        sufficiently develop user documentation when
                                        integrating the CORE Accounting System into
            CCC financial operations. Staff resources were primarily focused on
            ensuring efficient system implementation, with the expectation that
            necessary documentation would be developed as time permitted. As a
            result, FSA/CCC ability to provide assurance that financial operations are
            properly described and controlled is reduced. In addition, fundamental
            systems information was not available to facilitate internal and external
            reviews.

             The Joint Financial Management Improvement Program (JFMIP)
             “Framework for Federal Management Systems,” provides guidance for
             developing user documentation for Federal financial systems. According
             to the JFMIP, user documentation should describe the total system as a
             functionary entity, including policies, processes, and procedures. It should
             include a general system overview, with integrated text and graphics, to
             describe how each application integrates with other applications, and with
             the overall operational process. User documentation should also be
             developed to assist all levels of users and provide short, easy-to-use
             detailed operating instructions and reference materials related to the
             system.

             The documentation provided by CCC for the CORE Accounting System
             and its supporting feeder systems was not consistent with JFMIP
             guidance and did not include key elements of necessary documentation.
             Foremost, the CCC staff had not yet developed a general systems
             overview to describe how each application integrated with the other
             applications or within the overall operational process. The overview
             flowcharts that were developed to, in part, illustrate how feeder systems
             interfaced with the CORE Accounting System were out of date,
             inaccurate, and incomplete, and were not accompanied by descriptions of
             the overall system operations to facilitate reviews. FSA/CCC accountants
             revised the systems user requirements to reflect changes to the system in
             place of developing documentation specifically designed to afford a
             general overview of the system as a whole.              Although the user
             requirements may have included all elements of the system, it was difficult
             to interpret or to use for locating descriptions of specific processes and
             activities.  In our opinion, these documents did not provide clear

USDA/OIG-A/06401-4-KC                                                           Page 22
          descriptions of the system as a whole or the relationships between various
          functions within the system.

          Examples of the weaknesses identified in the general system overview
          documentation included the following:

             •   CCC did not develop a summary narrative overview that provided a
                 simple overall explanation of the major components of the CORE
                 Accounting System. We found no documentation that described, in
                 user-friendly terms, how the overall system functioned or interfaced
                 with various feeder and other subordinate systems so that less
                 informed managers, users, and auditors could grasp the overall
                 systems objectives, scope of functions, or chronology of system
                 events.

             •   CCC presented a user requirements document in place of a
                 systems overview. However, the user requirements were not
                 cross-referenced to overview flowcharts or visa versa, preventing
                 us from locating descriptions of key system activities in the user
                 requirements, and from identifying functions described in the user
                 requirements in the overview flowcharts.

             •   Overview flowcharts were developed without regard to conventional
                 diagramming symbols and data-flow directional indicators. For
                 example, the flowchart represented the custom voucher of “CV”
                 function as a document, rather than a multi-faceted function that
                 processed and stored data, prepared reports, and initiated certain
                 accounting entries.

             •   The flowchart was not updated to reflect revisions to the system
                 during FY 2001. The CORE Accounting System feeder systems
                 listed in the user requirements differed significantly from those on
                 the flowchart. The systems overview flowchart also did not include
                 key data validations and other major controls.

          CCC recognized the need for a documented systems overview, but the
          higher priority of implementing the system delayed the development of
          such documentation. However, CCC/FSA began to develop a users
          manual for the system in August 2001 with an anticipated completion date
          of March 2002.

                                      Prepare, issue, and maintain up-to-date
 RECOMMENDATION NO. 13                appropriate systems documentation, including
                                      overview,    descriptions,  and      flowcharts
                                      describing key functions and interrelationships

USDA/OIG-A/06401-4-KC                                                       Page 23
          with all subordinate systems, as provided by the JFMIP for the CORE
          Accounting System.




USDA/OIG-A/06401-4-KC                                                Page 24
                                         CCC did not use meaningful and efficient
       FINDING NO. 5                     formats (naming conventions) for establishing
                                         all account posting models for its CORE
Improvement in CORE Accounting           Accounting System application for domestic
 System Posting Models Needed            program operations.       In addition, CCC’s
                                         documentation was not prepared to support
                                         the current CORE Accounting System posting
          models (nine feeder systems) or was incomplete (two feeder systems).
          This occurred because CCC developed its CORE Accounting System
          transaction structure around the existing accounting feeder systems from
          its former financial management system. Furthermore, CCC did not
          emphasize documentation of the CORE Accounting System posting
          models during system development and implementation. As a result, the
          risk of incorrect posting of transactions is increased, continuation of CORE
          Accounting System operations in the absence of key personnel is at risk,
          and efficient and effective management and external review of the posting
          models is precluded. Also, the consistent recording and reporting of
          common accounting events is not ensured.

            OMB Circular No. A-127, Financial Management Systems, dated July 23,
            1993, requires common processes to be used for processing similar kinds
            of transactions throughout an integrated financial management system to
            enable transactions to be reported in a consistent manner. It also requires
            financial events to be recorded by applying the requirements of the SGL at
            the transaction level. The JFMIP Core Financial System Requirements,
            dated November 2001, requires that financial management systems be
            designed with effective and efficient interrelationships between software,
            hardware, personnel, procedures, controls and data contained with the
            systems. It also provides, as a minimum, a financial management system
            must have standard data classifications (definition and format) established
            and used for recording financial events.

            CCC records transactions to its CORE Accounting System application
            using automated interfaces from 11 different accounting feeder systems.
            In addition, CCC records transactions using accounting entries that are
            manually prepared and entered by CCC accounting personnel. CCC uses
            program codes (posting models) to define the general ledger accounts the
            transactions are recorded to. CCC accounting personnel are responsible
            for selecting the correct program code for those transactions that are
            manually recorded.

            Because of CCC’s unique reporting requirements, it uses a combination of
            program codes, crop codes and program years to define postings to the
            general ledger. We determined that there were approximately 360,000 of

USDA/OIG-A/06401-4-KC                                                         Page 25
          these code combinations in CCC’s CORE Accounting System. However,
          of these, approximately 15,000 represent unique program codes that
          define the CORE Accounting System transaction codes and transaction
          type codes used for posting transactions to the specific general ledger
          accounts.

          We determined that CCC did not establish uniform and efficient formats
          for the 15,000 CORE Accounting System program codes. According to
          CORE Accounting System personnel, individuals responsible for the 11
          accounting feeder systems defined the program codes. However, 9 of 11
          accounting feeder systems defined their CORE Accounting System
          program codes without standard data definitions and formats to clearly
          define the accounting events being recorded. We also determined that
          the program codes used to record manual accounting entries were not
          established using standard data definitions and formats.

          For the two accounting feeder systems with some type of uniform program
          code formats, we determined that the formats were not always followed.
          For example, according to documentation being drafted during our review
          for these two feeder systems, program codes used to record commodity
          inventory activity contain a seven character format; however, we identified
          at least five commodity inventory program codes with eight characters. In
          addition, existing documentation of the program code formats and the
          CORE Accounting System transaction codes and transaction types for
          these two systems was incomplete or not current. For example, CCC’s
          program codes for its State and County Office Automation Project
          accounting feeder system had not been updated and documented in a
          CCC handbook.

          Defining a standard transaction(s) for each accounting event ensures that
          transactions are recorded and reported in a consistent manner and in
          accordance with the SGL. The CORE Accounting System must ensure
          that transactions are handled consistently, regardless of their point of
          origin. It also must ensure that transactions are controlled properly to
          provide reasonable assurance that the recording, processing, and
          reporting of financial data are properly performed and that the
          completeness and accuracy of authorized transactions are ensured.

                               Obtain outside resources to evaluate CCC’s
 RECOMMENDATION NO. 14         CORE Accounting System posting models in
                               order to streamline the transaction posting
                               structure. Develop and implement consistent
       and efficient posting model structures and appropriate system
       enhancements based upon the recommendations of this evaluation.


USDA/OIG-A/06401-4-KC                                                       Page 26
III. IMPROVEMENTS NEEDED IN SECURITY AND CONTROL OVER
INFORMATION TECHNOLOGY (IT) RESOURCES


                                       We reported in our prior audit report that
        FINDING NO. 6                  security over FSA/CCC information technology
                                       (IT) resources needed strengthening. We
                                       found that CCC’s CORE Accounting System
                                       did not meet OMB and Departmental security
           requirements, and that physical and logical security controls were weak.
           Also, we reviewed controls at the Office of the Chief Information
           Officer/National Information Technology Center (OCIO/NITC) for FY 2000
           and identified internal control problems, which impact FSA/CCC
           operations. As a result, FSA/CCC could be susceptible to internal and
           external intrusions and to unauthorized access and manipulation of its
           critical systems, programs, and data files.

           We reported on our examination of OCIO/NITC’s internal control structure
           in Audit Report 88099-3-FM, dated September 21, 2001. Our review
           disclosed material internal control weaknesses that could impact
           FSA/CCC operations, such as the need for strengthened controls over
           accesses to their resources from the Internet; improved vulnerability
           scanning and response to identified weaknesses; and improved controls
           over access authorities established for authorized users.                We
           recommended actions to be taken to: (1) improve its controls over logical
           access to its resources; (2) include all appropriate systems in vulnerability
           scans and establish policies to take prompt action to investigate and
           mitigate identified vulnerabilities; and (3) require Internet access of NITC
           mainframes to go through a controlled, secure process and implement a
           warning banner to ensure that users acknowledge their access to a U.S.
           Government system. NITC generally agreed with the recommendations in
           this report, and corrective actions have been completed with regard to the
           vulnerability scans.

           We reported in last year’s report, CCC was not able to provide to us a
           system security certification, an application security plan, or evidence that
           the CORE Accounting System had been adequately tested as part of its
           disaster recovery and contingency planning efforts. As a result, CCC
           could not provide reasonable assurance that a minimum set of internal
           controls, as required by OMB Circular A-130, Management of Federal
           Information Resources, and Departmental Manual 3140-1, Management
           of ADP Security Manual, had been implemented for the CORE Accounting


USDA/OIG-A/06401-4-KC                                                          Page 27
                     System. This system processes approximately 20 million transactions
                     annually.

                     We recommended that CCC prepare security assessments and related
                     documents for the CORE Accounting System as required by OMB Circular
                     A-130 and Departmental security requirements. FSA/CCC officials intend
                     to accomplish planned corrective actions to complete comprehensive
                     system security assessments and related certifications by September 30,
                     2002, for its 12 major sensitive operational computer applications.

                     Our audit of security over U.S. Department of Agriculture (USDA) IT
                     resources5 included a review of the security of FSA/CCC IT6 resources at
                     six locations. Weaknesses identified during our review included:

                          •     FSA systems contained numerous vulnerabilities that, if left
                                uncorrected, could allow unauthorized users access to critical and
                                sensitive FSA/CCC programs and financial data. We found 40
                                high-risk vulnerabilities7, 212 medium-risk vulnerabilities, and 964
                                low risk vulnerabilities, in the systems reviewed; they ranged from
                                failure to change default settings to a large number of logons or
                                unused logons whose associated passwords were set to never
                                expire. The scan results were shared with FSA officials as the
                                scans were completed.           Where feasible, FSA officials took
                                immediate corrective actions. We recommended FSA perform
                                scans on a regular basis and mitigate all weaknesses. FSA is
                                working with the other service center agencies to conduct scans
                                within their joint environment by June 2002.

                          •     Logical and physical access controls needed improvement. For
                                example, we found that removal of access to systems for separated
                                employees was inadequate, and password controls were
                                inadequate for some systems.

                          •     Risk assessments were not completed at required intervals and
                                security plans did not provide a management structure indicating
                                system responsibilities. In addition, contingency plans were not
                                always updated to reflect significant changes, nor were they tested
                                on an annual basis.


5
  Audit Report 50099-27-FM, “Security over USDA Information Technology Resources Needs Improvement”, dated March 2001.
6
  Audit Report 03099-47-KC, “Farm Service Agency/Commodity Credit Corporation – Security Over Information Technology
Resources, dated October 31, 2001.
7
  High-risk vulnerabilities are those which provide access to the computer and possibly the network, of computers. Medium-risk
vulnerabilities are those that provide access to sensitive network data that may lead to the exploitation of higher-risk vulnerabilities.
Low-risk vulnerabilities are those that provide access to network data that might be sensitive, but is less likely to lead to a higher-risk
exploit.

USDA/OIG-A/06401-4-KC                                                                                                        Page 28
          We recommended actions to be taken to (1) remind FSA personnel of
          their responsibilities to protect sensitive program data, (2) review and
          strengthen FSA physical security where feasible, (3) report inappropriate
          system usage to responsible managers and, (4) provide additional
          supervisory oversight over locations where segregation of duties is limited
          by lack of personnel resources.          FSA generally agreed with the
          recommendations in these reports and corrective actions have been
          completed or are in progress.

          Since these weaknesses and recommended corrective actions have been
          reported separately to the OCIO/NITC and FSA/CCC in other audit
          reports, we are making no further recommendations on IT security matters
          noted in this subsection.




USDA/OIG-A/06401-4-KC                                                       Page 29
IV. COMPUTATION OF CARGO PREFERENCE REIMBURSEMENT
CLAIMS IN DISPUTE


                                           CCC has not taken aggressive action to clarify
              FINDING NO. 7                calculation of cargo preference reimbursement
                                           claims in regard to the 20 percent excess
                                           freight and ocean freight differential charges
                                           that are submitted to the U.S. Department of
                                           Transportation’s     Maritime    Administration
                 (MARAD). This occurred because of confusion and questions regarding a
                 1987 Memorandum of Understanding between the various agencies
                 involved that describes the method of calculation of the amounts
                 authorized for USDA reimbursement. As a result, CCC has not timely
                 billed and received funds owed for transportation of commodities.
                 Accordingly, CCC’s account receivables could be materially understated.

                   In our prior audit of CCC FY 2000 Financial Statements (Report No.
                   06401-14-FM), we reported that an audit conducted by the OIG, U.S.
                   Agency for International Development (USAID),8 found that USDA could
                   be entitled to an additional $289 million in unclaimed cargo preference
                   reimbursements for cost incurred under P.L. 480 food assistance
                   programs since 1992.9 CCC records showed it submitted billings to
                   MARAD’s Office of Cargo Preference in August and September 2001 for
                   $71 and $54 million for FYs 1994 and 1995, for reimbursement of the 20
                   percent excess freight. MARAD then reported to CCC on October 17 and
                   19, 2001, that it had determined that MARAD did not have an excess 20
                   percent obligation and that CCC was not entitled to any reimbursement for
                   these timeframes. As of January 2002, CCC has computed the 20
                   percent excess freight amounts for FYs 1996 and 1997 but has not yet
                   computed amounts for FYs 1998, 1999, 2000 and 2001. CCC has not yet
                   processed billings for FYs 1996 and 1997, and will not do so until there is
                   a resolution as to whether it is entitled to the 20 percent excess freight
                   reimbursement calculation. In addition, CCC’s action plan shows that it is
                   to calculate and bill for ocean freight differential reimbursement for FYs
                   1998, 1999, 2000, and 2001 in FY 2002.



8
  Audit Report No. 9-000-01-003-P, Audit of USAID’s Cargo Preference Reimbursements Under Section 901d of the Merchant
Marine Act of 1936, dated March 30, 2001.
9
  Section 901d of the Merchant Marine Act of 1936, as amended, authorized USDA to claim reimbursement for excess ocean freight
costs associated with the transport of commodities under the food assistance programs administered by USDA and USAID. A 1987
Memorandum of Understanding between the Department of Transportation, USDA Commodity Credit Corporation, and USAID,
describes the procedures regarding the calculation, request, and payment of cargo preference reimbursements.

USDA/OIG-A/06401-4-KC                                                                                            Page 30
           The USAID audit also reported that CCC had not reconciled differences
           totaling $187 million between its requested reimbursements and the
           amounts approved. CCC had concurred with these MARAD
           determinations.

           CCC/FSA reported these conditions as a material weakness in its FMFIA
           report for FY 2001. CCC had developed and implemented a plan to clear
           the backlog of these claims by the end of FY 2002 and established a task
           force with representatives from USAID, USDA, and OMB to develop a new
           Memorandum of Understanding. However, the task force has only
           developed and forwarded questions to the attorneys at the various
           agencies to be answered before an agreement can be reached.

                                   Accelerate completion of the Memorandum of
 RECOMMENDATION NO. 15             Understanding at the corporate level of the
                                   various Federal agencies involved and when
                                   signed, establish a USDA task force that
       reports to the Controller to facilitate the computation, preparation, and
       submission of the appropriate amount of unclaimed cargo preference
       reimbursements until completed.




USDA/OIG-A/06401-4-KC                                                     Page 31
V. MEANINGFUL PERFORMANCE MEASURES ARE NEEDED


                                      During our audit of the Implementation of the
        FINDING NO. 8                 Government Performance and Results Act
                                      (GPRA) in the FSA/CCC, Audit No.
                                      50601-4-CH, we determined that the
                                      Management      Discussion     and   Analysis
           (MD&A) section of the CCC’s FY 2001 financial statements generally did
           not contain meaningful performance measures which demonstrated
           progress towards meeting its long-term goals and mission.

           SFFAS No. 15, provides that the MD&A should include vital, significant
           program measures, consistent with measures included in budget
           documents and other materials related to the implementation of GPRA,
           and that would affect the judgments and decisions of people who rely on
           the financial statements as a source of information. The program results
           should be expressed in terms of objective, relevant measures that
           disclose the extent to which agency programs are achieving their intended
           objectives and should be significant to the managing, budgeting, and
           oversight functions of Congress and the Administration.

           CCC selected 15 performance measures from the FSA/CCC’s annual
           performance report, part of its GPRA implementation efforts, to be
           included in the MD&A section of the financial statements as an expression
           of CCC’s program performance. However, 14 of these measures were
           output oriented measures that would not provide the reader a clear
           understanding of performance nor act as a gauge of the CCC’s
           performance in accomplishing its mission. For example, four output
           measures were included in the MD&A regarding acreages reported under
           various practices of the Conservation Reserve Program. However, it is
           not clear what impact these measures and the reported acreages would
           have on the accomplishment of the strategic goal of assisting producers
           and landowners to achieve a high level of stewardship of soil, water, air
           and wildlife while protecting the human and natural environment. The
           FSA/CCC needs to develop outcome oriented performance measures for
           vital programs that would complement or replace existing output measures
           and would better exhibit progress in achieving the mission of the
           Corporation. This would have enabled CCC to include performance
           measures in the MD&A that were significant and that would better
           demonstrate progress in achieving goals and objectives.



USDA/OIG-A/06401-4-KC                                                      Page 32
             Because OIG is performing additional GPRA work in the FSA (Audit No.
             50601-4-CH), we are making no further recommendation herein.

Material weaknesses are reportable conditions in which the design or operation of one
or more of the internal control components does not reduce to a relatively low level the
risk that misstatements, in amounts that would be material to the financial statements
being audited, may occur and not be detected within a timely period by employees in
the normal course of performing their assigned functions. Because of inherent
limitations in internal controls, misstatements, losses, or noncompliance may
nevertheless occur and not be detected. We believe the reportable conditions
described in Finding Nos. 1 through 7 are material weaknesses.

This report is intended solely for the information and use of the management of CCC,
OMB, and Congress and is not intended to be and should not be used by anyone other
than these specified parties.




JOYCE N. FLEISCHMAN
Acting Inspector General

February 26, 2002




USDA/OIG-A/06401-4-KC                                                          Page 33
                UNITED STATES DEPARTMENT OF AGRICULTURE

                                OFFICE OF INSPECTOR GENERAL


                                      Washington D.C. 20250




  REPORT OF THE OFFICE OF INSPECTOR GENERAL
  ON COMPLIANCE WITH LAWS AND REGULATIONS


TO:   Board of Directors
      Commodity Credit Corporation

We have audited the accompanying Balance Sheet of the Commodity Credit
Corporation (CCC) and the related Consolidating Statements of Net Cost and Changes
in Net Position and Required Supplementary Stewardship Information as of September
30, 2001, for the fiscal year (FY) then ended. We attempted to audit the accompanying
Combining Statements of Budgetary Resources and Financing and have issued our
report thereon, dated February 26, 2002. Except as provided in our opinion, we
conducted our audit in accordance with generally accepted auditing standards; the
standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States; Office of Management and
Budget (OMB) Bulletin 01-02, “Audit Requirements for Federal Financial Statements”;
and other OMB bulletins applicable to the period under audit.

The management of CCC is responsible for compliance with laws and regulations
applicable to it. As part of obtaining reasonable assurance about whether CCC’s
principal financial statements are free of material misstatements, we performed tests of
CCC’s compliance with certain provisions of laws and regulations, noncompliance with
which could have a direct and material effect on the determination of financial statement
amounts, and certain other laws and regulations specified in OMB Bulletin 01-02, or
designated significant by CCC. We limited our tests of compliance and did not test
compliance with all laws and regulations applicable to CCC. We tested compliance
with:

      •   Agriculture, Rural Development, Food and Drug Administration, and Related
          Agencies Appropriations Act of 1997;

      •   Agricultural Act of 1938;

      •   Agricultural Act of 1949;

      •   Anti-Deficiency Acts of 1906 and 1950;

USDA/OIG-A/06401-4-KC                                                           Page 34
      •   Budget and Accounting Procedures of Act of 1950;

      •   CCC Charter Act of 1948;

      •   Chief Financial Officers Act of 1990;

      •   Corporation Control Act of 1945;

      •   Debt Collection Improvement Act (DCIA) of 1996;

      •   Federal Agriculture Improvement and Reform Act of 1996;

      •   Federal Credit Reform Act of 1990;

      •   Federal Crop Insurance Reform and Department of Agriculture
          Reorganization Act of 1994;

      •   Federal Manager’s Financial Integrity Act of 1982 (FMFIA);

      •   Federal Financial Management Improvement Act of 1996 (FFMIA);

      •   Food, Agriculture, Conservation, and Trade Act of 1990;

      •   Food Security Act of 1985;

      •   Food Security Improvements Act of 1986;

      •   Government Performance and Results Act of 1993; and

      •   Government Management Reform Act of 1994.


As part of the audit, we reviewed management’s process for evaluating and reporting on
internal control and accounting systems as required by the FMFIA and compared the
agency’s most recent FMFIA reports with the evaluation we conducted of the CCC’s
internal control structure. We also reviewed and tested the CCC’s policies, procedures,
and systems for documenting and supporting financial, statistical, and other information
presented in the Management Discussion and Analysis section and Required
Supplemental Information sections. However, providing an opinion on compliance with
certain provisions of laws and regulations was not an objective of our audit.
Accordingly, we do not express such an opinion.

Under FFMIA, we are required to report whether CCC’s financial management systems
substantially comply with (1) the Federal financial management systems requirements,
(2) Federal accounting standards, and (3) the SGL at the transaction level. The results

USDA/OIG-A/06401-4-KC                                                          Page 35
of our tests disclosed instances, described in our “Findings and Recommendations”
section, where the CCC’s financial management systems did not substantially comply
with the above requirements.

Material instances of noncompliance are failures to follow requirements, or violations of
prohibitions, contained in law or regulation that cause us to conclude that the
aggregation of the misstatements resulting from those failures or violations is material to
the financial statements, or the sensitivity of the matter would cause it to be perceived
as significant by others. Material instances of noncompliance noted during our audit are
presented in the “Findings and Recommendations” section of this report.




USDA/OIG-A/06401-4-KC                                                             Page 36
           FINDINGS AND RECOMMENDATIONS



VI. NONCOMPLIANCE WITH FEDERAL FINANCIAL MANAGEMENT
IMPROVEMENT ACT (FFMIA) AND FEDERAL MANAGER’S FINANCIAL
INTEGRITY ACT (FMFIA)



                                        CCC’s financial management systems do not
        FINDING NO. 9                   substantially comply with the requirements of
                                        the FFMIA or the FMFIA.         This lack of
                                        compliance is due to nonconformances in
                                        CCC’s       CORE       Accounting     System,
           weaknesses in credit reform accounting, and inability to prepare financial
           statements that meet accounting standards in a timely manner. As a
           result, Department and agency oversight officials do not have the critical
           financial management information to manage CCC’s assets of over $15.7
           billion, net costs of $25.3 billion, and reported budget authority of $65.4
           billion.

           The FFMIA provides that an agency of the Federal Government will be
           considered to be in substantial compliance with financial management
           system requirements if among other issues:

                  •   Agency financial management systems meet the OMB Circular
                      A-127 requirements.

                  •   The agency can prepare audited financial statements in
                      accordance with applicable accounting standards.

                  •   The agency can comply with the SGL.

           According to the FFMIA, substantial noncompliance with the requirements
           in any one or more of the three areas included in FFMIA would result in
           substantial noncompliance with FFMIA.

           Beginning with our FY 1993 audit report, (Audit Report No. 03600-16-FM,
           dated March 1, 1994) and for nine consecutive FYs, OIG has reported on
           CCC’s problems with its financial management systems. Although
           progress was achieved with the implementation of the CORE Accounting

USDA/OIG-A/06401-4-KC                                                        Page 37
                    System for CCC’s domestic program operations, further improvements are
                    needed. CCC’s foreign financial systems still do not meet FFMIA
                    requirements and its CORE Accounting System for its domestic program
                    operations needs additional improvements to enable it to fully meet FFMIA
                    requirements. CCC’s financial management systems also do not follow
                    requirements published in JFMIP Federal Financial Management System
                    Requirements series, which prescribe the functions that must be
                    performed by systems to capture information for preparation of financial
                    statements and other financial reports.

                    To support the financial reporting process, an agency’s financial system
                    must provide complete, reliable, consistent, timely, and useful financial
                    management information on operations to enable central management
                    agencies, individual operating agencies, divisions, bureaus, and other
                    subunits to carry out their fiduciary responsibilities; deter fraud, waste, and
                    abuse of resources; and facilitate efficient and effective delivery of
                    programs by relating financial consequences to program performance.

                    The problems we have noted with CCC financial systems follow:

                    •         We found significant differences between the amounts in CCC’s FY
                              2001 Combining Statement of Budgetary Resources (SBR) and
                              those reported to the OMB’s MAX Budget Information System
                              (MAX)10 in preparation of the Program and Financing (P&F)
                              Schedules in the President’s Budget.11 CCC’s fund accounts had
                              significant undisclosed differences resulting from its use of different
                              sources of data input information into the President’s Budget and
                              the SBR and from adjustments made to the SBR that were made
                              too late to be reported into OMB’s MAX system. According to
                              SFFAS No. 7, Paragraph 79, agencies are required to reconcile
                              amounts shown in the SBR and the P&F Schedules and disclose
                              the reasons for any significant differences in the notes to the
                              financial statements. However, CCC could not adequately explain
                              the significant differences found between the amounts in its SBR
                              and those reported to the OMB to prepare the “actual” column of
                              the President’s Budget for CCC fund accounts in time for audit.




10
   The MAX Budget Information System is OMB’s computer system used to collect and process most of the information required for
preparing the budget.
11
   FACTS II is a Treasury-run system that agencies use to submit one set of financial data that fulfills the need of the Form SF-133,
Report on Budget Execution, the FMS 2108, Year End Closing Statement, and much of the initial set of data that will appear in the
“prior year” column of the P&F Schedule of the President’s Budget. OMB Circular No. A-11, Preparation and Submission of Budget
Estimates, is the guidance used by agencies to report information in the President’s Budget. Agencies input information into the
President’s Budget Schedules using OMB MAX System as required by OMB Circular A-11.

USDA/OIG-A/06401-4-KC                                                                                                   Page 38
                             The GAO had previously reported12 that CCC’s fund account had
                             significant undisclosed differences resulting from the agency’s use
                             of different sources of data to input information into the President’s
                             Budget and the CCC’s FY 1999 SBR, and from adjustments made
                             to the SBR that were received too late to be reflected in the
                             President’s Budget. GAO also found that data quality problems
                             also existed for this account and it was unable to reconcile CCC’s
                             SBR to the P&F Schedule. According to CCC budget officials, they
                             used proprietary accounts to submit budget execution information
                             because their budget accounting system did not provide the level of
                             detail necessary to input information into the President’s Budget.
                             CCC officials also told GAO that for FY 2000, CCC was
                             implementing a new accounting system that would provide the level
                             of detail necessary to input budgetary account information into the
                             President’s Budget. However, CCC budget officials advised that
                             the reports used to input FY 2001 Budget Actuals into the
                             President’s Budget were still based on proprietary accounts, not
                             budgetary accounts, in the CORE Accounting System. CCC
                             budget officials further advised they plan to convert the existing
                             budget Actual reports to budgetary accounts beginning with the FY
                             2004 (FY 2002 Actuals) Federal Budget Process.

                   •         As noted in our report on internal controls, CCC did not use
                             meaningful and efficient formats (naming conventions) for
                             establishing all account posting models for its CORE Accounting
                             System application for domestic program operations. We also
                             noted that not all account posting models recorded CCC
                             transactions consistent with SGL posting rules. For example, CCC
                             posting models reduced accounts payable when establishing
                             accounts receivable for program payments made in error and a
                             refund was due back to CCC. However, SGL posting rules provide
                             that accounts payable not be affected when establishing a
                             receivable due to an overpayment. This results in CCC posting
                             additional transactions to correct the out-of-balance condition. We
                             also noted a CCC posting model which incorrectly posted
                             transactions only to budgetary accounts. These transactions
                             should have only been posted to proprietary accounts. The
                             incorrect code was not removed from the system. FSA personnel
                             advised that they emphasized the addition of new codes to the
                             system to implement new legislation rather than removal of inactive
                             codes.



12
 GAO Report No. 01-43, Federal Accounting and Reporting – Framework for Assessing the Reliability of Budget Execution Data, is
Not Yet Fully Implemented, dated October 2000.

USDA/OIG-A/06401-4-KC                                                                                             Page 39
          •     We noted one instance where CCC used a SGL account
                inconsistent with SGL requirements. CCC Account No. 1360,
                Allowance for Loss on Claims Receivable, is used to record CCC’s
                valuation allowance for CCC claims receivable. However, SGL
                requirements provide that Account No. 1360, Penalties, Fines, and
                Administrative Fees Receivable, is used to record amounts of
                penalties, fines, and administrative fees on accounts and loans
                receivable due to the delinquency of a debt. Because of this error,
                CCC originally misstated but then corrected its footnote for its
                accounts receivable by $1.5 million. In addition, we identified 13
                CCC general ledger accounts with account titles that were
                inconsistent with the account titles as prescribed by the SGL. For
                example, CCC Account No. 4222 was entitled “Reim and Other
                Advances Rec” while the SGL provides that the title of the account
                should be “Unfilled Customer Orders with Advance.” Using general
                ledger account titles that are inconsistent with the SGL increases
                the risk that general ledger accounts will not be used for their
                intended purpose.

          •     As we reported in our prior report, there was no automated
                interface between the CORE Accounting System and the financial
                systems used by the peanut association and tobacco servicing
                agent banks to account for and report on their commodity loan
                operations for CCC. These programs are valued at over $730
                million. In order to record peanut and tobacco loan activities, CCC
                manually inputs monthly summary entries into its CORE Accounting
                System. In addition, peanut servicing agent banks still account for
                and report on their commodity loan operations using the accounting
                structure for CCC’s former Financial Management System that was
                replaced by the CORE Accounting System.

          •     CCC’s FFMIA Remediation Plan, dated August 30, 2001, identified
                three areas of planned remedial actions, along with planned
                completion dates, to resolve its financial management problems.
                One of these areas was to prepare financial statements in
                accordance with applicable accounting standards and meet
                established timeframes by December 2001. The plan also showed
                that CCC, by September 2002, was to complete its implementation
                of a new General Sales Manager System and replace the former
                Financial Management System accounting structure in the APLUS
                system with the CORE Accounting Structure by December 2001.
                These actions were not achieved or are still pending.

          We will continue to monitor CCC’s detailed actions to accomplish its
          remediation plan. We plan to include our assessment of the progress

USDA/OIG-A/06401-4-KC                                                     Page 40
           achieved in our future Semiannual Report to Congress as required by the
           FFMIA.

                                 Report in FSA/CCC’s FMFIA report that direct
 RECOMMENDATION NO. 16           and guaranteed foreign credit program
                                 accounting    and   financial management
                                 systems’ contain nonconformances and
       material weaknesses. Also, report that CCC’s CORE Accounting System
       contains system nonconformances and material weaknesses.




USDA/OIG-A/06401-4-KC                                                    Page 41
VII. POTENTIAL NONCOMPLIANCE WITH THE ANTI-DEFICIENCY ACT
REQUIREMENTS


In its management representation letter to OIG, CCC officials did not report any
instances of noncompliance with laws and regulations pertaining to the Anti-Deficiency
Act. However, our audit disclosed excessive disbursement of funds for the Market Loss
Assistance Program and questionable contracting activities for accounting services
performed at the request of OCFO where funds were over-obligated and/or over-
expended, indicating potential Anti-Deficiency Act violations.

                                        CCC/FSA did not effectively utilize available
        FINDING NO. 10                  funds control data to timely suspend the
                                        disbursement of 2001 Market Loss Assistance
 Market Loss Assistance Payments        (MLA) payments prior to exceeding the $4.6
           Exceed Limit                 billion limitation.   This occurred, in part
                                        because CCC does not have an automated
                                        process to prohibit disbursements when funds
            reach the administrative limitations established by the legislation or the
            agency. In addition, CCC/FSA personnel did not act swiftly enough to
            disable computer program software to prohibit MLA payments after they
            had become aware of the potential problem. CCC disbursed $4,761,238
            more than was administratively established before additional funds were
            provided through an interchange authority.13 Consequently, an Anti-
            Deficiency Act violation may have occurred.

                    The Anti-Deficiency Act14 provides, in part, that an officer or employee of
                    the United States Government may not (a) make or authorize an
                    expenditure or obligation exceeding an amount available in an
                    appropriation or fund for the expenditure or obligation; (b) involve the
                    government in a contract or obligation for the payment of money before an
                    appropriation is made unless authorized by law. Section 1517 a 2, of this
                    act further provides that an agency may not exceed the available amount
                    of an administrative subdivision officially directed by the agency.

                    The Agricultural Economic Assistance Act,15 enacted on August 13, 2001,
                    directed that the Secretary shall, to the maximum extent practicable, use
                    $4,622,240,000 in CCC funds to make market loss assistance payments
                    to owners and producers on farms that are eligible for a final payment for
                    FY 2001 under production flexibility contracts. CCC generated an

13 Transfers of funds can be made under provisions of the Secretary of Agriculture’s interchange authority (7 U.S.C. 2257)
14
   31 USC 1341.
15 Public Law 107-25

USDA/OIG-A/06401-4-KC                                                                                                 Page 42
                      accounting memorandum,16 which provided a limitation of $4,622,240,000
                      for these payments.

                      CCC/FSA initiated daily tracking of the MLA payments on August 16,
                      2001, and directed the Kansas City Finance Office (KCFO) to begin
                      tracking the payments on September 14, 2001. However, over 99 percent
                      of the available funds had already been disbursed as of September 14,
                      2001. CCC records showed that the cumulative amount of payments did
                      not exceed the authorized limitation until September 20, 2001. CCC/FSA
                      personnel acted to seek additional funding through the use of the
                      Secretary’s interchange authority, which was approved on September 25,
                      2001.     However, MLA payments made on September 20 through
                      September 24, 2001, had already exceeded the limitation by $4,761,238.
                      CCC did transmit a software modification that disabled the MLA payment
                      option to State offices on September 21, 2001.

                      Our prior audit of CCC FY 2000 Financial Statements (Report No.
                      06401-14-FM, dated June 27, 2001) also disclosed a similar condition
                      where CCC disbursed funds in excess of that appropriated for the
                      Livestock Indemnity Programs. A September 20, 2001, response showed,
                      in part, that OMB determined that the $46,350 in overpayments described
                      in that report represented a “technical” violation of the Anti-Deficiency Act
                      provisions.

                                        Provide the facts and circumstances for the
     RECOMMENDATION NO. 17              cited   condition    including the    agency
                                        administrative      limitation    information
                                        (sub-division) to the Office of the General
           Counsel (OGC) and request a written legal opinion on whether violations
           of the Anti-Deficiency Act have occurred. Also, report to Congress, as
           required, if it is determined by OGC that an Anti-Deficiency Act violation
           has occurred.

                                                  Develop and utilize an automated funds
     RECOMMENDATION NO. 18                        control process that prohibits disbursement of
                                                  funds before the agency and legislative
                                                  limitation is exhausted.




16
     Control No. 01-053, dated August 28, 2001.

USDA/OIG-A/06401-4-KC                                                                     Page 43
                                        CCC revolving funds were inappropriately
       FINDING NO. 11                   used in FYs 2001 and 2002 to pay for
                                        contracted accounting services performed at
    CCC Funds Used Before               the request of the OCFO without following the
   Appropriate Reimbursement            required funds control process. FSA/CCC did
           Requested                    not assess whether budgetary resources were
                                        available prior to disbursing funds from CCC’s
                                        revolving fund to pay a contractor in FYs 2001
           and 2002. As a result, CCC expended $687,865 in FY 2001 and
           $113,866 in FY 2002 for payments related to questionable contracting
           activities it had conducted and unnecessarily incurred interest expense of
           about $19,500 because CCC borrowing authority was used to finance the
           contract. Consequently, an Anti-Deficiency Act violation may have
           occurred.

            The Anti-Deficiency Act states, in part, that an officer or employee of the
            United States Government may not (a) make or authorize an expenditure
            or obligation exceeding an amount available in an appropriation or fund for
            the expenditure or obligation; and (b) involve the government in a contract
            or obligation for the payment of money before an appropriation is made
            unless authorized by law.

            The OCFO had determined that it needed to contract with an outside
            accounting firm to ascertain the reliability of its legacy accounting system’s
            general ledger ending balances and assure accurate beginning balances
            being converted to the Department’s Foundation Financial Information
            System (FFIS). OCFO’s planned approach for issuing this contract was to
            utilize the contracting services of the FSA, since it was one of the
            agencies being converted into FFIS on October 1, 2000, and was familiar
            with the requirements. The OCFO was to fund the contract through a
            reimbursable agreement with FSA and FSA would actually conduct the
            contracting activities.

            CCC entered into a reimbursable agreement, dated September 29, 2000,
            with OCFO at the end of FY 2000 to contract with an outside accounting
            firm to accomplish this task for multiple USDA agencies (Animal Plant
            Health and Inspection Service, Natural Resources Conservation Service,
            Rural Development Mission Area and FSA). The duration of the
            agreement was shown as October 1, 1999, through September 30, 2000,
            and the financing for the contract was shown to be from Fund 12X4336,
            Commodity Credit Corporation, the Corporation’s revolving fund.
            However, it appears that CCC’s use of these funds is limited to only
            stabilize, support, and protect farm income per legislation (Title 15 U.S.C.
            Chapter 15-2). On September 29, 2000, CCC recorded budgetary entries
            of $950,137 in its accounts showing the unfilled customer order of the

USDA/OIG-A/06401-4-KC                                                            Page 44
           agreement amount. However, no proprietary entries were made at that
           time. In addition, while CCC required OCFO to verify the invoices
           submitted by the outside accounting firm for work performed prior to
           payment, CCC did not request reimbursement from the OCFO before it
           disbursed the funds. As a result, CCC disbursed its own revolving
           (borrowed) funds for a contract for performing non-CCC related services
           without proper authorization. That is, there was no legislation authorizing
           CCC to credit payments to the revolving fund for the work and CCC could
           not disburse funds in anticipation of reimbursement from OCFO.

           On October 26, 2001, CCC recorded proprietary entries as of
           September 30, 2001, which showed a receivable amount of $687,865.
           During FY 2001 and 2002, prior to requesting reimbursement from OCFO,
           CCC disbursed funds totaling $687,865 and $113,866, respectively, to the
           outside accounting firm under the reimbursable agreement with OCFO.
           When we questioned this activity, CCC requested reimbursement from
           OCFO of $801,731 in January 2002. The check for reimbursement was
           dated January 14, 2002, and only covered the actual amounts disbursed
           by CCC to the accounting firm. The resources of the USDA Working
           Capital Fund were utilized by OCFO to provide reimbursement to CCC.

                                     Provide the facts and circumstances for the
 RECOMMENDATION NO. 19               cited condition to OGC and request a written
                                     legal opinion on whether violations of the
                                     Anti-Deficiency Act have occurred. Report to
       Congress, as required, if it is determined by OGC that Anti-Deficiency Act
       violations have occurred.

                                       Determine the amount of unnecessary interest
 RECOMMENDATION NO. 20                 expense incurred by CCC and recover that
                                       amount from OCFO.




USDA/OIG-A/06401-4-KC                                                        Page 45
VIII. NON-COMPLIANCE WITH DEBT COLLECTION IMPROVEMENT
ACT


                                       In testimony before the Subcommittee on
       FINDING NO. 12                  Government         Efficiency,       Financial
                                       Management        and       Intergovernmental
                                       Relations, Committee on Government Reform,
                                       House of Representatives on December 5,
          2001, the GAO reported that USDA had not yet taken effective actions to
          ensure that all eligible delinquent debt is promptly referred to Treasury.
          During FY 2001, FSA/CCC continued to make progress in transferring
          debt eligible for Treasury Cross Servicing and Offset Programs. However,
          the Corporation was not in substantial compliance with one provision of
          the Debt Collection Improvement Act of 1996 (DCIA). In addition, we
          found that receivables older than 60 days were not always converted by
          field office personnel to claim status and reported to FSA/CCC’s
          centralized debt servicing system. As a result, some delinquent debts are
          not being serviced in accordance with DCIA and potential collection
          opportunities may be lost.

              •   Additional actions are still needed to enable CCC to fully comply
                  with DCIA requirements for the Treasury Offset Program (TOP).
                  CCC has been unable to implement provisions of the DCIA that
                  allows it to make payment offsets. In order for CCC to implement
                  this provision of the DCIA, it needs to develop an automated
                  interface between its and Treasury systems. During FY 2001, CCC
                  and Treasury made little progress in development of the necessary
                  system requirements to enable CCC to interface with Treasury and
                  begin off-setting payments, where applicable. CCC personnel
                  continue to advise they are dependent on Treasury to revise and/or
                  develop the requirements needed to have full compliance with
                  DCIA for TOP.

                  In our FY 1999 report, we recommended that CCC coordinate with
                  the Department’s CFO to ensure Treasury develops a process for
                  FSA/CCC systems to interface with Treasury. CCC has requested
                  that the TOP manager provide an update of the schedule for
                  providing systems requirements for non-Treasury disbursing
                  agencies and a proposed date for implementation of the interface
                  payment data to TOP. Based on the implementation date provided
                  by Treasury and receipt of their system requirements for the
                  interface, FSA/CCC will begin the design, development, testing and
USDA/OIG-A/06401-4-KC                                                       Page 46
                            implementation phases of the necessary software enhancements.
                            The planned timeframe for completing the planned interface with
                            Treasury is 2003.

                        •   FSA/CCC did not ensure that receivables older than 60 days were
                            always converted by field office personnel to claim status.
                            FSA/CCC personnel stated that a centralized system was not in
                            place to review the details of each receivable in the field offices
                            until September 2001. In addition, many decisions rely on the field
                            personnel; therefore, KCFO does not control the entire debt
                            management process. As a result, over 8,000 receivables totaling
                            about $18.6 million had not been converted to claim status and, if
                            eligible, referred to Treasury17 for cross-servicing which includes
                            the Treasury Offset Program.

                            In the field offices, agency employees are to follow the guidance in
                            the FSA Handbooks18 which provide that outstanding receivables
                            older than 60 days be transferred to claims status. Guidance19 also
                            allows field office personnel to decide when to convert a receivable
                            to claim status.

                            On September 30, 2001, FSA/CCC records showed they had 8,150
                            receivables nationwide totaling $18,651,333 that were older than 60
                            days without payments being made on them since they were
                            established. We also noted that many of these receivables (7,584
                            totaling $15,591,624) were over 180 days old and could be subject
                            to immediate referral to Treasury upon conversion to claim status.

                            FSA/CCC personnel could only review summarized data using the
                            CORE Accounting System because it did not provide detailed
                            information concerning each individual receivable.       As of
                            September 2001, KCFO debt collection personnel could utilize the
                            detailed historical data that became available in the “Debt
                            Datamart” to monitor field office actions.




17
   FSA/CCC is subject to the Debt Collection Improvement Act of 1996 and Office of Management and Budget Circular A-129,
“Policies for Federal Credit Programs and Non-Tax Receivables.” According to the Debt Collection Improvement Act, debts older
than 180 days should be referred to the Treasury Offset Program and cross-servicing.
18
   FSA Handbook 67-FI (Rev.1) Amendment 1, page 6-1 and 58-FI (Rev.6) Amendment 12, page 5-3.
19
   FSA Handbook 58-FI (Rev.6) Amendment 12, page 4-14.

USDA/OIG-A/06401-4-KC                                                                                            Page 47
                                     Continue efforts to coordinate through the
 RECOMMENDATION NO. 21               Department’s CFO with Treasury officials to
                                     obtain the needed process for FSA/CCC
                                     systems to interface with Treasury by the end
           of FY 2003.

                                  Develop and implement formal procedures to
 RECOMMENDATION NO. 22            ensure FSA/CCC receivables are: properly
                                  monitored using the “Debt Datamart” which
                                  includes creating reports of those receivables
       needing review and notifying field offices of actions needed; timely
       transferred to claim status; and subsequently referred to Treasury, as
       appropriate.

                                     Consolidate KCFO and field office debt
 RECOMMENDATION NO. 23               collection activities at KCFO to improve
                                     timeliness of claim establishment and facilitate
                                     referral to Treasury.




USDA/OIG-A/06401-4-KC                                                       Page 48
IX. ANNUAL REVIEW OF USER FEES NOT PERFORMED FOR ALL
PROGRAMS


                                      As reported, in our FY 1999 and 2000 financial
         FINDING NO. 13               statement audits, CCC has not yet conducted
                                      required annual reviews of fees associated
                                      with the General Sales Manager (GSM)
                                      guarantee program. As a result, the fees CCC
            charged for its GSM-102 and GSM-103 export credit guarantee programs
            have not been changed for many years and may not be reflecting current
            costs.

             OMB Circular A-129 dated November 29, 2000. Section II, 3 b states:
             “Agencies should establish interest and fees structures for direct loans
             and loan guarantees and should review structures at least
             annually…Interest and fees should be set at levels that minimize default
             and other subsidiary costs, of the direct loan or loan guarantee, while
             supporting the achievement of the program’s policy objectives.”

             We reported previously that CCC’s GSM-102 Export Credit Guarantee
             Program has a legislative requirement that prohibits the charging of a fee
             in excess of 1 percent of the guarantee. Under CCC regulations, current
             fees range from 15.3 cents per $100 guaranteed for a 90-day credit
             guarantee, to 66.3 cents per $100 guaranteed on a 36-month credit
             guarantee. There is no legislative limit on the fees that CCC can charge
             on the GSM-103 program. We recommended in our 1999 audit that CCC
             conduct the required review of fees to assure the charges are set at levels
             that minimize the corporation’s cost without unduly impairing these loan
             program’s policy objectives, and ensure that these loan guarantee fees
             are reviewed annually in the future. In response to our recommendations,
             CCC stated that the Foreign Agricultural Service would work with the
             OCFO staff to develop a standard template for an annual review of fees.

             Because of the recommendations made in our prior report and CCC’s
             planned corrective actions, we are making no further recommendations at
             this time.

We considered these reportable instances of noncompliance in forming our opinion on
whether CCC’s FY 2001 financial statements are presented fairly, in all material
respects, and this report does not modify the unqualified and disclaimer of opinions on
CCC’s financial statements expressed in our report, dated February 26, 2002.


USDA/OIG-A/06401-4-KC                                                          Page 49
This report is intended solely for the information and use of the management of CCC,
OMB and Congress, and is not intended to be and should not be used by anyone other
than these specified parties.



JOYCE N. FLEISCHMAN
Acting Inspector General

February 26, 2002




USDA/OIG-A/06401-4-KC                                                      Page 50
ABBREVIATIONS
Act                     Federal Credit Reform Act of 1990

CCC                     Commodity Credit Corporation

CFO                     Chief Financial Officer

DCIA                    Debt Collection Improvement Act

FBWT                    Fund Balance with Treasury

FFIS                    Foundation Financial Information System

FFMIA                   Federal Financial Management Improvement Act of 1996

FMFIA                   Federal Manager’s Financial Integrity Act of 1982

FSA                     Farm Service Agency

FY                      Fiscal Year

GAO                     General Accounting Office

GPRA                    Government Performance and Results Act

GSM                     General Sales Manager

ICRAS                   Inter-Agency Country Risk Assessment System

JFMIP                   Joint Financial Management Improvement Program

IT                      Information Technology

KCFO                    Kansas City Finance Office

MARAD                   U. S. Department of Transportation’s Maritime
                        Administration

MD&A                    Management Discussion and Analysis

MLA                     Market Loss Assistance

NITC                    National Information Technology Center

USDA/OIG-A/06401-4-KC                                                       Page 51
OCFO                    Office of the Chief Financial Officer

OCIO                    Office of the Chief Information Officer

OGC                     Office of the General Counsel

OIG                     Office of Inspector General

OMB                     Office of Management and Budget

OMB MAX                 Office of Management and Budget MAX System

P&F                     Program and Financing

PCAT                    Program Category

SBR                     Combining Statement of Budgetary Resources

SGL                     U.S. Standard General Ledger

SFFAS                   Statement of Federal Financial Accounting Standards

TOP                     Treasury Offset Program

TREASURY                U.S. Department of Treasury

USAID                   U.S. Agency for International Development

USDA                    U.S. Department of Agriculture




USDA/OIG-A/06401-4-KC                                                     Page 52
